<html>
<title> - IS INTELLECTUAL DIVERSITY AN ENDANGERED SPECIES ON AMERICA'S COLLEGE CAMPUSES?</title>
<body><pre>[Senate Hearing 108-380]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-380

 IS INTELLECTUAL DIVERSITY AN ENDANGERED SPECIES ON AMERICA'S COLLEGE 
                               CAMPUSES?

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

    EXAMINING INTELLECTUAL DIVERSITY ON AMERICA'S COLLEGE CAMPUSES, 
     FOCUSING ON THE PROBLEM OF FREEDOM OF EXPRESSION, POLITICIZED 
                    INSTRUCTION, AND CORE CURRICULA

                               __________

                            OCTOBER 29, 2003

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


90-304              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                          WEDNESDAY, 29, 2003

                                                                   Page
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire.     1
Neal, Anne, President, American Council of Trustees and Alumni, 
  Washington, DC; Robert David Johnson, professor, Brooklyn 
  College and The Graduate Center of the City University of New 
  York, Brooklyn, NY; Greg Lukianoff, Director of Legal and 
  Public Advocacy, Foundation For Individual Rights in Education, 
  Philadelphia, PA; and Anthony Dick, student, University of 
  Virginia, Charlottesville, VA..................................     9

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Anne Neal....................................................    33
    Robert David Johnson.........................................    36
    Greg Lukianoff...............................................    39
    Anthony Dick.................................................    43
    Stanley Rothman..............................................    46
    American Jewish Congress.....................................    52

                                 (iii)

  

 
 IS INTELLECTUAL DIVERSITY AN ENDANGERED SPECIES ON AMERICA'S COLLEGE 
                               CAMPUSES?

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 2003

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:55 p.m., in 
room SD-430, Dirksen Senate Office Building, Senator Gregg, 
(chairman of the committee), presiding.
    Present: Senators Gregg, Alexander, and Sessions.

                   Opening Statement of Senator Gregg

    The Chairman. We will get started. There are other members 
who are going to be coming and we are a little early, but I 
have a fairly lengthy opening statement and I don't want to tie 
up our witnesses. I will make this statement and get the thing 
rolling, and as other members come, we will proceed.
    I consider this to be a very important hearing from my 
standpoint, my focus. This whole issue of intellectual 
diversity is something I am very concerned about and the 
deterioration, in my opinion, of the quality of education in 
this country is tied to the failure of our higher education 
community to recognize that they are basically becoming single-
dimensional and that they need more diversity in the area of 
intellectual activity.
    The word diversity is quite popular today, and nowhere is 
that more true than on our Nation's college campuses. There is 
no doubt that our Nation's colleges and universities have in 
recent years devoted vast resources toward the goal of 
establishing ethnic and gender diversity on their campuses, and 
they are certainly to be credited for doing that.
    This hearing, however, will focus on a different and yet 
equally important kind of diversity and that is intellectual 
diversity. This is the kind of diversity that comes from having 
the full marketplace of ideas represented on a campus rather 
than just a narrow slice, the kind of diversity characterized 
by the free exchange of ideas and the honest debate on the 
issues of the day rather than by restrictions on free speech 
and one-sided curriculum.
    I believe that, with rare exception, the intellectual 
diversity of academia has diminished significantly over the 
last 30 years. My view is not unique and it is not new. Others 
have been pointing to what I see as a lack of intellectual 
diversity in academia for years and we will hear some of those 
voices today. However, new evidence is beginning to show just 
how pervasive and damaging this lack of intellectual diversity 
really is.
    The Foundation for Individual Rights in Education, FIRE, 
has just launched a website that catalogs hundreds of speech 
codes at colleges and universities across our Nation. The 
Independent Women's Forum has just released a report 
documenting the decline of fundamental liberal arts courses at 
the top ten liberal arts schools in our country. They found 
these courses are being replaced by trendy courses focused on 
race and culture and gender.
    A soon-to-be-published survey of the American College 
Faculty shows that the academy leans to the political left by a 
wide margin in contrast to 30 years ago. Ultimately, this is a 
quality issue. While college tuitions go up and up, it is fair 
to ask just what are our students and our parents getting for 
their money? Hopefully, this hearing will shed light on just 
how this lack of intellectual diversity is hurting the quality 
of education received by college students. That is what this 
hearing is about.
    Now, let me say a brief word concerning what this hearing 
is not about. It is not about restricting anyone's academic 
freedom or having the Federal Government dictate college 
curriculum; just the opposite. One can see evidence of the lack 
of intellectual diversity in higher education if one looks at 
the course offerings in certain fields. Whereas at one time 
traditional approaches to history and literature, for example, 
were featured prominently in the curriculum, along with new 
approaches like social history, today, those traditional 
approaches are being squeezed out in favor of a uniform 
curriculum based more on the interest group politics than on 
academic merit.
    A study by the National Association of Scholars shows that 
only one of the top 50 colleges in the country required 
undergraduate students to take an introductory history course 
in 1993. That is down 60 percent from 1964.
    A recently released report by the Independent Women's 
Forum, looked at the top ten liberal arts colleges as ranked by 
U.S. News and World Report and found that, for example, a 
freshman at Amherst is not offered an overview course in 
American or European history, that Carleton College's history 
department offers only one broad overview course.
    What is replacing such traditional and educationally sound 
courses? The answer is a proliferation of classes focused on 
race, class, gender, with little intellectual substance. At 
Antioch College in Ohio, for example, students can take classes 
in the ``Ethnopsychiatry,'' ``Queer British Fiction,'' and 
``Ecology and Feminism.'' The University of Texas offers an 
English course which teaches students that there is nothing 
grammatically wrong with the sentence, quote, ``Nobody didn't 
leave.'' Vanderbilt University offers courses entitled 
``Pornography and Prostitution in History.'' Swarthmore offers 
courses in ``Illicit Desires in Literature and Fictions in 
Identity.''
    These are just a few examples, but increasingly, they 
represent the norm. It would not be so bad if these examples 
were simply courses in a structure of many courses that were 
being offered that was a balanced structure. The problem is, it 
is not a balanced structure as traditional courses are being 
eliminated, such as the overview courses in American and 
European history. It has gotten so bad that some professors 
have actually started new professional associations in fields 
like history and literature as an alternative to the new 
uniformity that they see in these fields.
    Campus speech codes that seek to punish students for 
exercising their First Amendment rights are also rampant on 
colleges today. These codes typically define forbidden speech 
in overly broad terms that cannot help but have a chilling 
effect on open, rigorous, and thoughtful dialogue. Some recent 
examples include any, quote, ``jokes and stories experienced by 
others as harassing.'' That is a Bowdin College speech code. 
Any speech that causes a loss of, quote, ``self-esteem.'' That 
is a Colby College speech code. Any, quote, ``verbal behavior 
that produces feelings of impotence, anger, or 
disenfranchisement.'' That is a Brown University speech code. 
Any, quote, ``inappropriately directed laughter,'' a University 
of Connecticut speech code.
    The Foundation for Individual Rights in Education has 
cataloged hundreds of these speech codes and has fought several 
of them in court. FIRE, which is the acronym for the 
Foundation, estimates that approximately two-thirds of our U.S. 
colleges have speech codes of some kind.
    In addition to speech codes in the past few years, we have 
seen the rise of another strange new development on campuses, 
the free speech zone. These zones are created by college 
administrators to limit students' protests and demonstrations 
only to certain areas on campus. The implication, of course, is 
that free speech can and will be restricted in places outside 
those zones.
    With policies like these in place, one must seriously 
question whether freedom of expression really exists for 
today's college student. They stifle the voices of public 
criticism, commentary, and satire and teach students to engage 
in self-censorship so as to avoid causing even the slightest 
offense.
    Another serious barrier to intellectual diversity on campus 
is the political and ideological bias of the faculty and the 
outright indoctrination practices by too many professors and 
administrations. A soon-to-be-published survey of 1,500 faculty 
members at 140 American colleges and universities conducted by 
the Angus Reid polling firm and directed by Professor Stanley 
Rothman of Smith College found that 72 percent of the faculty 
members described themselves as politically liberal, while only 
15 percent described themselves as politically conservative.
    In the humanities and social sciences, where social and 
political issues are more likely to arise and where bias most 
impacts classroom teaching, this bias is even more pronounced. 
Eighty-one percent of professors in the humanities and 75 
percent of professors in the social sciences identify their 
views as strongly or moderately liberal, while only nine 
percent hold conservative views.
    Rothman points to evidence that over the last 30 years, we 
have witnessed a startling shift toward the left in academia. 
According to the Carnegie Commission on Higher Education survey 
conducted in 1969, 45 percent of faculty classified themselves 
as politically liberal that year. That compares to 72 percent 
today.
    It seems clear from this data that the American professor 
is unrepresentative of the full range of views in America 
today. Not only is the faculty biased, but this bias impacts 
what goes on in the classroom, as well. There appears to be an 
increasing number of instances in which alternative viewpoints 
are either silenced or ignored in the classroom, often with 
hostility or disdain. It has gotten so bad that a new, 
nonpartisan website sprang up a year ago to catalog these sorts 
of incidents and has so far registered scores of examples.
    A couple of examples are these. At the University of 
Maryland at College Park, a course on ``Art of Ancient 
America'' was derailed by the professor's frequent tirades on 
U.S. foreign policy and the oppression of Middle East people, 
in which he pretended to strap a bomb to himself as a terrorist 
would. Examples like this that disparage the State of Israel 
are unfortunate and all too common.
    A Notre Dame professor's stated goal in his introduction to 
American government class was to, quote, ``win students over to 
the cause of liberalism.'' A student reported the professor 
spent so much time discussing his political bent that few of 
the required readings were actually covered.
    Another example of this type of bias concerns students at 
Citrus College in California. As part of a speech class at that 
institution, one professor offered her students extra credit if 
they wrote letters to President Bush protesting the war in 
Iraq. Those who wrote the letters praising the Iraq campaign or 
who refused to actually mail their letters were refused credit 
for the assignment.
    What is more, universities are not even trying to hide what 
they are doing. The University of California in Berkeley 
recently repealed its longstanding policy against politicizing 
the classroom, calling it, quote, ``outdated.''
    It is not just that classrooms in some colleges have 
instituted mandatory freshman orientation programs and 
diversity training workshops, run by administrative entities 
with names like the Prejudice Reduction Committee. These 
efforts at thought reform often involve paid consultants whose 
job it is to reeducate students and faculty to accept the view 
of multiculturalism based on the victim mentality and group 
rather than individual rights. In recent years, the classified 
section of the Chronicle of Higher Education has included 
hundreds of advertisements for these consultants, demonstrating 
just how pervasive such an effort has become.
    Students on many of America's college campuses are being 
exposed to only a narrow range of viewpoints through the 
politicized course offerings and the ideologically homogeneous 
faculty that fosters an atmosphere where dissenting views are 
either quashed or ridiculed and significant restrictions are 
placed on free speech.
    Simply put, this lack of intellectual diversity in higher 
education shortchanges students by depriving them of the 
exposure to a robust debate on the issues of the day. There is 
nothing wrong with having a dominant liberal view on our 
campuses. It is to be expected. It is the nature of higher 
education. But allowing that dominant view should not eliminate 
the opportunity for dialogue of other views on the campus.
    How can students be liberally educated if they are only 
receiving part of the story? What do we teach students about 
freedom when they see that some views are discouraged or even 
forbidden? What does free speech stand for if it is not allowed 
on a campus? What are we teaching them about our American 
traditions if traditional subjects like political and 
constitutional history are shoved aside to make room for trendy 
courses of the cultural elite? How can students lacking in 
exposure to the full marketplace of ideas be expected to thrive 
after college in a world where opinions and perspectives differ 
greatly?
    [The prepared statement of Senator Gregg follows:]

                  Prepared Statement of Senator Gregg

    The word ``diversity'' is quite popular today, and nowhere 
is that more true than on our nation's college campuses. There 
is no doubt that our nation's colleges and universities have, 
in recent years, devoted vast resources toward the goal of 
establishing ethnic and gender diversity on their campuses. And 
certainly, we all applaud the fact that the doors of higher 
education today are now open to all, regardless of gender or 
race.
    This hearing, however, will focus on a different, and yet 
equally important, kind of diversity--intellectual diversity. 
This is the kind of diversity that comes from having the full 
marketplace of ideas represented on campus, rather than just a 
narrow slice; the kind of diversity characterized by the free 
exchange of ideas and honest debate on the issues of the day, 
rather than by restrictions on free speech and a one-sided 
curriculum.
    I believe that, with rare exceptions, the intellectual 
diversity of the academy has diminished significantly over the 
last 30 years. My view is not unique, and it is not new. Others 
have been pointing to what they see as a lack of intellectual 
diversity in the academy for years, and we will hear some of 
those voices today. However, new evidence is beginning to show 
just how pervasive, and damaging, this lack of intellectual 
diversity really is. For example, the Foundation for Individual 
Rights in Education (FIRE) has just launched a website that 
catalogues hundreds of speech codes at colleges and 
universities across the nation. The Independent Women's Forum 
has just released a report documenting the decline of 
fundamental liberal arts courses at the top 10 liberal arts 
colleges. They found these courses are being replaced by trendy 
courses focused on race and gender. Also, a soon-to-be-
published survey of American college faculty shows that the 
academy leans to the political left by a wide margin, in 
contrast to 30 years ago.
    Ultimately, this is a quality issue. While college tuitions 
go up and up, it's fair to ask just what students and parents 
are getting for their money. Hopefully, this hearing will shed 
light on just how this lack of intellectual diversity is 
hurting the quality of education received by college students. 
That is what this hearing is about. Now let me say a brief word 
concerning what this hearing is not about. It is not about 
restricting anyone's academic freedom or having the federal 
government dictate college curricula.
    One can see evidence of the lack of intellectual diversity 
in higher education if one looks at the courses offered in 
certain fields. Whereas at one time traditional approaches to 
history and literature, for example, were featured prominently 
in the curriculum, along with new approaches like social 
history, today those traditional approaches are being squeezed 
out in favor of a uniform curriculum based more on interest-
group politics than academic merit.
    A study by the National Association of Scholars showed that 
only one of the top 50 universities in the country required 
undergraduates to take an introductory history class in 1993, 
down from 60% in 1964. And a recently released report by the 
Independent Women's Forum looked at the top 10 liberal arts 
schools as ranked by U.S. News and World Report, and found, for 
example, that a freshman at Amherst isn't offered an overview 
course in American or European history, and Carleton College's 
history department offers only one broad overview course.
    What is replacing such traditional and educationally sound 
courses? The answer is a proliferation of classes focused on 
race, class, and gender, with little intellectual substance. At 
Antioch College in Ohio, students can take classes in 
Ethnopsychiatry, Queer British Fiction, and Ecology and 
Feminism. The University of Texas offers an English course 
which teaches students that there is nothing grammatically 
wrong with the sentence: ``Nobody didn't leave.'' Vanderbilt 
University offers a course entitled Pornography and 
Prostitution in History. Swarthmore offers courses in Illicit 
Desires in Literature, and Fictions in Identity. These are just 
examples, but increasingly they represent the norm. It has 
gotten so bad that some professors have actually started new 
professional associations in fields like history and 
literature, as alternatives to this new uniformity they see in 
those fields.
    Campus speech codes that seek to punish students for 
exercising their First Amendment rights are also rampant on 
college campuses today. These codes typically define forbidden 
speech in overly broad terms that cannot help but have a 
chilling effect on open, rigorous debate. Some recent examples 
include: any jokes and stories ``experienced by others as 
harassing'' (Bowdin College); any speech that causes a loss of 
``self-esteem'' (Colby College); and any ``verbal behavior'' 
that produces ``feelings of impotence, anger, or 
disenfranchisement'' (Brown University). The Foundation for 
Individual Rights in Education (FIRE) has catalogued hundreds 
of these speech codes, and has fought several of them in the 
courts. FIRE estimates that approximately two-thirds of U.S. 
colleges have speech codes of some kind.
    In addition to speech codes, in the past few years we have 
seen the rise of another strange new development on campus--the 
``free speech zone.'' These zones are created by college 
administrators to limit student protests and demonstrations 
only to certain areas on campus. The implication, of course, is 
that free speech can, and will, be restricted in places outside 
the zone.
    With policies like these in place, one must seriously 
question whether freedom of expression really exists for 
today's college student. They stifle the voices of public 
criticism, commentary, and satire, and teach students to engage 
in self-censorship so as to avoid causing even the slightest 
offense.
    Another serious barrier to intellectual diversity on campus 
is the political and ideological bias of the faculty, and the 
outright indoctrination practiced by too many professors and 
administrators. A soon-to-be published survey of more than 1500 
faculty members at 140 American colleges and universities, 
conducted by the Angus-Reid polling firm and directed by 
professor Stanley Rothman of Smith College, found that 72% of 
faculty members describe themselves as politically liberal, 
while only 15% describe themselves as politically conservative. 
In the humanities and social sciences, where social and 
political issues are most likely to arise and where bias most 
impacts classroom teaching, this bias is even more pronounced. 
81% of professors in the humanities and 75% of professors in 
the social sciences identify their views as strongly or 
moderately liberal, while only 9% hold strongly or moderately 
conservative views. Furthermore, Rothman points to evidence 
that the last 30 years have witnessed a startling shift toward 
the left in academia. According to the Carnegie Commission on 
Higher Education survey conducted in 1969, 45% of faculty 
classified themselves as politically liberal that year. That 
compares to 72% today.
    It seems clear from this data that the American 
professorate is unrepresentative of the full range of views in 
America today. Not only is the faculty biased, but this bias 
impacts what goes on in the classroom as well. There appear to 
be an increasing number of incidents in which alternative 
viewpoints are either silenced or ignored in the classroom--
often with hostility or disdain. It has gotten so bad that a 
new, nonpartisan website sprang up a year ago to catalogue 
these sorts of incidents, and has so far registered scores of 
examples.
    For example, a University of Maryland, College Park course 
on the Art of Ancient America was derailed by the professor's 
frequent tirades on U.S. foreign policy and the oppression of 
Middle Eastern people, in which he pretended to strap a bomb to 
himself as a terrorist would. Examples like this that disparage 
the state of Israel are unfortunately, all too common. Also 
cited is a Notre Dame professor, whose stated goal in his 
``Introduction to American Government'' class was to ``win 
students over to the cause of liberalism.'' A student reported 
that the professor spent so much time discussing his political 
bent that few of the required readings were actually covered.
    Another example of this outrageous bias concerns students 
at Citrus College in California. As part of a speech class at 
that institution, one professor offered her students extra 
credit if they wrote letters to President Bush protesting the 
war in Iraq. Those who wrote letters praising the Iraq campaign 
or who refused to actually mail their letters were refused 
credit for the assignment.
    What's more, universities are not even trying to hide what 
they are doing. The University of California, Berkeley recently 
repealed its long-standing policy against politicizing the 
classroom, calling it ``outdated.''
    And it's not just in the classroom. Some colleges have 
instituted mandatory freshman orientation programs and 
``diversity training workshops.'' Run by administrative 
entities with names like the ``Prejudice Reduction Committee,'' 
these efforts at thought reform often involve paid consultants 
whose job it is to ``re-educate'' students and faculty to 
accept a view of multiculturalism based on a victim mentality 
and group, rather than individual, rights. In recent years, the 
classified section of the Chronicle of Higher Education has 
included hundreds of advertisements for these consultants, 
demonstrating just how pervasive such efforts have become.
    Students on many of America's college campuses are being 
exposed to only a narrow range of viewpoints through 
politicized course offerings, an ideologically homogenous 
faculty that fosters an atmosphere where dissenting views are 
either quashed or ridiculed, and significant restrictions on 
free speech. Simply put, this lack of intellectual diversity in 
higher education shortchanges students by depriving them of 
exposure to a robust debate on the issues of the day. How can 
students be liberally educated if they are only receiving part 
of the story? What do we teach students about freedom when they 
see that some views are discouraged or even forbidden? What are 
we teaching them about our American traditions if traditional 
subjects like political and constitutional history are shoved 
aside to make room for trendy courses designed to appeal to 
grievance-based politics? How can students lacking in exposure 
to the full marketplace of ideas be expected to thrive after 
college in a world where opinions and perspectives differ 
greatly?
    I look forward to hearing our witnesses testify about these 
issues.
    The Chairman. This hearing is about these problems and 
about this concern, and therefore, I greatly appreciate the 
fact that our witnesses are willing to take the time to come 
here and testify.
    We have a very talented and knowledgeable panel today. I 
will introduce everybody and then we will begin.
    I will start with Anne Neal, who is President of the 
American Council of Trustees and Alumni, a nonprofit 
organization dedicated to academic freedom and excellence in 
higher education. Ms. Neal has served as General Counsel for 
the National Endowment of the Humanities, as well as a First 
Amendment and communications lawyer with two different law 
firms.
    We also have Robert David Johnson, a professor of history 
at Brooklyn College and Graduate Center of the City University 
of New York. Dr. Johnson, I understand, is now completing a 
book on Congress and the Cold War.
    We have with us Greg Lukianoff, who is Director of Legal 
and Public Advocacy for the Foundation for Individual Rights in 
Education, a nonprofit foundation devoted to free speech, 
individual liberty, and academic freedom in higher education. 
He attended Stanford University, where he focused on the First 
Amendment and constitutional law and practiced law in Northern 
California.
    And we have a student with us today, Anthony Dick, a third-
year student at the University of Virginia. Anthony is majoring 
in philosophy, and cognitive sciences, with a concentration in 
neuroscience, and is a columnist and former opinion editor for 
UVA's daily student newspaper. He recently founded the 
Individual Rights Coalition, a student group dedicated to 
preserving free speech and free thought on the campus. It is 
great to have you here today, Anthony. Do you like to be called 
Anthony or Tony?
    Mr. Dick. Anthony is fine.
    The Chairman. All right. Thank you. We will go this way and 
we will start with you, Ms. Neal.

    STATEMENTS OF ANNE NEAL, PRESIDENT, AMERICAN COUNCIL OF 
  TRUSTEES AND ALUMNI, WASHINGTON, DC.; ROBERT DAVID JOHNSON, 
PROFESSOR, BROOKLYN COLLEGE AND THE GRADUATE CENTER OF THE CITY 
  UNIVERSITY OF NEW YORK, BROOKLYN, NEW YORK; GREG LUKIANOFF, 
     DIRECTOR OF LEGAL AND PUBLIC ADVOCACY, FOUNDATION FOR 
INDIVIDUAL RIGHTS IN EDUCATION, PHILADELPHIA, PENNSYLVANIA; AND 
ANTHONY DICK, STUDENT, UNIVERSITY OF VIRGINIA, CHARLOTTESVILLE, 
                            VIRGINIA

    Ms. Neal. Thank you very much. A pundit has described our 
colleges and universities as islands of oppression in a sea of 
freedom. While the comment is humorous, the observation is 
quite serious. Threats to intellectual diversity in our 
colleges and universities should be of profound concern to all 
of us interested in the education of the next generation.
    As early as 1991, Yale President Benno Schmidt warned that 
the most serious threats to free expression existed on college 
campuses. ``The assumption seems to be,'' he said, ``that the 
purpose of education is to induce correct opinion rather than 
to search for wisdom and to liberate the mind.'' Retiring 
Harvard President Derek Bok also warned, ``What universities 
can and must resist are deliberate overt attempts to impose 
orthodoxy and suppress dissent. In recent years, the threat of 
orthodoxy has come primarily from within rather than outside 
the university.''
    My organization, the American Council of Trustees and 
Alumni, was founded in 1995 and is a bipartisan network of 
trustees and alumni across the country dedicated to academic 
freedom and excellence. Since our founding, we have had 
occasion to evaluate colleges and universities in terms of 
academic freedom and academic offerings and what we have 
discovered confirms these presidents' worst fears. Rather than 
fostering intellectual diversity, the robust exchange of ideas 
that the center has talked about, the very essence of a college 
education, our colleges and universities are increasingly 
bastions of political correctness, hostile to the free exchange 
of ideas.
    Before I go any further, I want to make one principle 
perfectly clear. There is no more important value to the life 
of the mind than academic freedom. This is the value that 
Thomas Jefferson vividly outlined for the University of 
Virginia. ``We are not afraid,'' said Jefferson, ``to follow 
truth wherever it may lead, nor to tolerate any error so long 
as reason is left free to combat it.'' And that means 
permitting academics of all political stripes to engage in that 
exercise.
    But what is at issue here today is the students' right to 
academic freedom, the students' right to learn and hear both 
sides of controversial issues of the day. While there is much 
thoughtful teaching, there are also many examples of teaching 
and learning being put into the service of politics and 
ideology.
    Threats to free exchange of ideas come in many forms, but 
as you have heard earlier, typically manifest themselves in the 
following ways: Disinviting of politically incorrect speakers; 
sanctions against speakers who fail to follow the politically 
correct line; instruction that is politicized; virtual 
elimination of broad survey courses in favor of trendy and 
often politicized classes; intimidation of students who seek to 
speak their mind; political discrimination in college hiring 
and retention; speech codes and campus newspaper theft and 
destruction.
    In my written testimony, there are numerous examples of 
these problems, but because we are limited for time, today I 
will highlight only a few. Let us look first at politicized 
courses.
    At the University of California, a course description for 
``The Politics and Poetics of Palestinian Resistance'' stated 
that, and I quote, ``Conservative thinkers are encouraged to 
seek other sections.'' The university called the description a 
failure of oversight and announced that it would monitor the 
class to ensure that it did not discourage varying viewpoints. 
The professor, a leader of the Students for Justice in 
Palestine, was not reprimanded and the class is now full.
    At the University of South Carolina, a professor provided 
students with a set of discussion guidelines that asked them 
to, and I quote, ``acknowledge that racism, classism, sexism, 
heterosexism, and other institutionalized forms of oppression 
exist,'' and called upon them to ``agree to combat actively the 
myths and stereotypes about our own groups and other groups so 
that we can break down the walls that prohibit group 
cooperation and group gain.'' I should note students are not 
asked to evaluate this thesis but to absorb it.
    As outlined in my full testimony, there are studies which 
have found that a substantial majority of faculty define 
themselves as politically liberal or left of center. Now, this 
alone would not be troubling if students were exposed to 
varying points of view. But, as the previous examples indicate, 
that is not the case.
    Indeed, the very concept of balance appears to be out of 
favor in contemporary academe. This, as we heard from Senator 
Gregg, is starkly underscored when the University of California 
Faculty Senate adopted a new regulation on academic freedom. 
This new provision removed the long-term prohibition against 
using the classroom, quote, ``as a platform for propaganda'' on 
the grounds that in this new age, academic freedom does not 
distinguish between interested and disinterested scholarship. 
At a time when postmodernism reigns on our campuses, the 
concept of the disinterested search for the truth has too often 
been supplanted by a conception that views issues in terms of 
race, class, and gender are the focus.
    Even this approach would not be fatal if students were 
given the knowledge and background that empowers them to think 
for themselves. But survey after survey by ACTA and others 
shows that students are no longer even being exposed to broad 
areas of knowledge. Rather than being introduced to 
foundational subjects, such as history, natural science, 
literature, government, and economics, students are permitted 
to pick and choose from a smorgasbord of classes that are often 
trendy and tendentious.
    In two studies conducted by the American Council of 
Trustees and Alumni, ``Losing America's Memory and Restoring 
America's Legacy,'' we discovered that not one of the top 50 
colleges requires a course in American history of all its 
graduates, and only five required any history at all. Instead, 
students are picking from course offerings ranging from, and I 
quote, ``From Hand to Mouth: Writing, Eating, and the 
Construction of Gender'' at Dartmouth, ``Global Sexualities'' 
at Duke, to ``Witchcraft, Sorcery, and Magic'' at Williams.
    Given substantial evidence that college students' freedom 
to learn is in jeopardy, this committee is to be commended for 
raising public awareness of this issue. Sunlight, as Justice 
Brandeis once observed, is a great disinfectant. The next 
question, of course, is what the remedy ought to be.
    ACTA respectfully submits that the solutions are not 
legislative mandates but, in fact, fall within the purview of 
college and university faculty, administrators, and boards of 
trustees. Statutory edicts on curricular matters are bound to 
raise academic freedom problems of their own. The remedy, as 
Madison wrote in The Federalist, would be worse than the 
disease.
    Therefore, ACTA recommends that the onus should rest upon 
boards who have a fiduciary obligation to protect academic 
freedom of both faculty and students from internal as well as 
external threats.
    In my full testimony, ACTA offers eight recommendations. 
Let me focus on just a few.
    Trustees should adopt a statement that all faculty are 
expected to present points of view other than their own in a 
balanced way and respect and nurture students' ability to make 
up their own minds on contentious issues. Trustees should adopt 
a policy underscoring that the focus of courses is intellectual 
development and acquisition of knowledge, not the manipulation 
of attitudes or engaging in political activism. Trustees should 
insist that their institutions offer broad-based survey courses 
designed to expose students to the best that has been done and 
said. Trustees should insist that university speaker programs 
present a range of views, and trustees should make clear that 
they will not tolerate ideological or political discrimination 
in the hiring, firing, or promoting of faculty.
    In sum, the challenges are great, but they are not 
insuperable. This committee has done a great service by 
bringing this important issue into public view. Thank you.
    The Chairman. Thank you, Ms. Neal.
    [The prepared statement of Ms. Neal may be found in 
additional material.]
    The Chairman. Dr. Johnson?
    Mr. Johnson. Thank you. As a historian of the Senate, I 
have written two books on the Senate and foreign policy and I 
am just finishing a book on Congress and the Cold War, as the 
Senator mentioned. It is a great honor for me to testify here 
today.
    I survived an attempt by Brooklyn College to deny me 
tenure, not on the basis of my scholarship, which the college 
praised, or my teaching, which the college also praised, but on 
my academic and intellectual values and beliefs, and as such, 
this was an attack on the principle of intellectual diversity 
on campus. Brooklyn's decision, which was based on the grounds 
of collegiality, which was not in the bylaws of the City 
University of New York or in the faculty contract, was 
ultimately overturned by CUNY Chancellor Matthew Goldstein and 
by the CUNY Board of Trustees.
    As it turned out, the basis of the college's case was a 
series of secret letters that were revealed to me by CUNY after 
the case was settled that came to be labeled the ``Shadow 
File.'' The ``Shadow File'' letters made three principal 
charges on my alleged uncollegiality. These were written by 
senior members of the history department at Brooklyn.
    My first allegedly uncollegial act was having objected 
along with other, but tenured, colleagues to the college's 
decision to sponsor as an educational event a teach-in after 
the September 11 attacks that contained no speakers who were 
favorable to either U.S. or Israeli policy in the Middle East. 
My argument was not that anti-war speakers should not be heard 
on campus, but only that if the college was going to bill the 
event an educational one--the provost actually invited 
professors to dismiss their classes to attend the teach-in--
that all views be represented.
    Second, I was condemned for joining other, again tenured, 
colleagues in recommending that the history department, during 
the search for a new hire in European history, base its hire on 
the values of academic merit as revealed in candidates' 
personnel and application files rather than concerns of gender 
or personality, and this came only after the department was 
briefed by the college affirmative action officer that giving 
undue preference on the basis of gender would be violative of 
Federal law.
    And third, I was condemned in these secret letters because 
of a hostility to the fields that I teach. I teach political, 
diplomatic, and constitutional history at Brooklyn, fields that 
are perceived as conservative. Even though I am not a 
conservative, I was attacked as such out of the fear that these 
fields only represented the views of dead white men.
    Indeed, one of the ``Shadow File'' letters argued for my 
dismissal on the grounds that I taught about, quote, ``figures 
in power,'' which the ``Shadow File'' author dubbed an old-
fashioned approach to the field that appealed only to young 
white males whose narrow-minded intellectual interests 
explained why they chose to study American political, 
diplomatic, or constitutional history.
    That such a letter could be written and that the author of 
such a letter would expect this argument to be persuasive 
within the college community as a whole testifies to the 
pervasive nature of the bias against fields perceived as 
conservative, like political, diplomatic, and constitutional 
history within the academy.
    Indeed, as Aaron O'Connor, a professor of philosophy at the 
University of Pennsylvania and author of the influential 
academic web log ``Critical Mass'' recently wrote, ``Since 
scholarship centered on questions of identity, oppression, and 
power relations is in turn a sign of a particular political 
commitment, faculty diversity will only be pursued insofar as 
it ensures and perpetuates ideological uniformity.''
    My case attracted a good deal of media attention partly 
because of a perception in both the academy and the media that 
it illustrated broader patterns within the academy that 
disturbed many people on both the left and the right who 
respect the principle of intellectual diversity within college 
campuses.
    If you look through the websites of 30 large State public 
universities for their departments of history, you will find an 
interesting thing in terms of the specialists in U.S. history. 
In these 30 history departments, 22 of the 30 have less than a 
quarter of their Americanist faculty, faculty who teach U.S. 
history, who deal in any way with topics dealing with 
political, diplomatic, or constitutional history, topped off by 
the University of Michigan and the University of Washington 
which have only one professor on their faculty in history 
dealing with these important topics. Instead, the departments 
focus on social history, trendy issues, as the Senator 
mentioned in his opening statement.
    As bad as this situation is, the situation is often worse 
at smaller schools, again public, that often fly below the 
radar screen because of insufficient attention devoted by 
alumni and trustees. This is particularly true at smaller State 
public institutions that fall under the influence of national 
organizations like the American Association of Colleges and 
Universities and the American Association of Higher Education 
that promote radical revisions of college curricula away from 
the acquisition of knowledge and toward the study of diversity 
and multiculturalism.
    For instance, at Washington State's Evergreen College, 
there are two courses, and only two, for students who wish to 
take offerings in 20th century U.S. political, diplomatic, or 
constitutional history. One is a course in the history of 
American injustice. The second is a course in the history of 
the United States since 1950 which is entitled, ``Inherently 
Unequal,'' and asserts as a premise, not as a subject for 
debate, that racist opposition and a resurgence of 
conservativism in all three branches of the Federal Government 
have barricaded the road to desegregation.
    It is important to note that I am advocating, and I think 
most in the academy are not advocating that the government 
should impose a curricula on college. All that we want is some 
sense of balance, that if courses are offered that reflect one 
clear ideological point of view, their commitment to 
intellectual diversity be established by administrators, by 
trustees, and by the Federal Government as a whole.
    And so what can be done to solve these problems? Well, it 
is not as if these issues have been ignored entirely by the 
academy. As the Senator mentioned in his opening statement, 
some people within the historical profession, for instance, 
have founded an organization called the Historical Society, 
which is designed to promote the study of history free from 
ideological polarization and based instead on research and the 
acquisition of knowledge.
    However, since this is largely a problem created by a lack 
of intellectual diversity among the faculty, it is very 
unlikely that this issue is going to be solved by faculty 
action alone, and so administrators and trustees have a very 
important role in this case, as well. For instance, at CUNY, 
the Chancellor, Matthew Goldstein, has made the raising of 
standards and the promotion of intellectual diversity his 
hallmark goal and has intervened at local campuses when 
necessary to promote that goal. The CUNY trustees have done 
likewise. And so the Goldstein-CUNY trustees in this sense are 
a model for other administrators to follow in the promotion of 
intellectual diversity.
    And finally, the Federal Government does, I think, have a 
role in this issue. First of all, through hearings such as 
this, it brings the matter to the attention of the public and 
it seems to me that it is impossible for any college or 
university to publicly defend the offering of politicized 
curricula or hiring and promotion policies for faculty that 
base the judgment on political viewpoints or perceived 
conservativeness rather than academic merit. And in addition, 
targeted funding is also important.
    I commend the Senator, Senator Gregg, for his sponsorship 
of the Higher Education for Freedom Act, which is designed to 
promote the study of democracy, of civic institutions, of 
liberal economics within our Nation's institutions of higher 
learning.
    Four decades ago, William Fulbright, a longtime member of 
the Senate Foreign Relations Committed, said that the Senate's 
primary obligation to American political life was helping 
enable a national consensus through educating the public. I 
commend the committee for holding this hearing in an attempt to 
educate the public and I thank you for listening to me.
    The Chairman. Thank you very much, Doctor, and thank you 
for the background. It is extremely enlightening. We very much 
appreciate it.
    [The prepared statement of Mr. Johnson may be found in 
additional material.]
    The Chairman. Mr. Lukianoff?
    Mr. Lukianoff. Mr. Chairman, members of the committee, my 
name is Greg Lukianoff. I am the Legal Director of the 
Foundation for Individual Rights in Education, commonly known 
as FIRE.
    Prior to working at FIRE, I was unaware of how common 
serious violations of students' basic free speech rights are on 
campus. Since working at FIRE, however, I have witnessed 
hundreds of cases in which private and public universities have 
demonstrated a distressing regard for free speech.
    For example, despite the protections of the First Amendment 
at public colleges and powerful statements of commitment to 
free speech and academic freedom at most private liberal arts 
colleges, most campuses still promulgate speech codes. You may 
wonder what we mean by speech codes. FIRE defines a speech 
codes as any campus regulation that punishes, forbids, heavily 
regulates, or restricts a substantial amount of expression that 
would be protected in the larger society.
    The current generation of speech codes come in many shapes 
and sizes, including, but not limited to, e-mail policies, 
diversity statements, and harassment policies that extend to 
speech that may merely insult or demean, in their own words. 
While they may not call themselves speech codes anymore, a 
speech code by any other name still suppresses speech.
    To combat these codes, FIRE has established 
speechcodes.org, which was updated just this last summer, a 
website that catalogs speech restrictions at colleges across 
the country. FIRE has rated each of the nonsectarian 
universities using a lighting scheme. Green lights indicate we 
found no policy that seriously imperils speech. Yellow lights 
indicate that a university has some policies that could ban or 
excessively regulate speech. And red lights are awarded to 
universities that have policies that ban a substantial amount 
of what would be clearly protected speech in the larger 
society. Of the 176 universities that we have rated so far, 
only 20 have green light policies. Eighty earned yellows. 
Seventy-six, fully 43 percent of the schools we have done so 
far, earned red lights.
    Some of these red light policies are bizarre. For instance, 
Hampshire College in Massachusetts bans psychological 
intimidation and harassment of any person or pet. Others are 
almost quaint, like Kansas State University, which bans the use 
of profane or vulgar language if it is used in a disruptive 
manner. It has been long settled in constitutional law that 
free speech is not limited to the pleasant or the pious.
    Some codes are remarkably broad and vague, like that of 
Bard College in New York, which bans deliberately causing 
embarrassment, discomfort, or injury to others or to the 
community as a whole.
    Another kind of speech code is a so-called speech zone 
policy, which limits protests, debates, and even pamphleteering 
to tiny corners of campus. FIRE has identified or fought these 
policies at over two dozen public universities. One example is 
that until FIRE intervened, Texas Tech University, a school 
with 28,000 students, provided only one 20-foot-wide gazebo to 
be used as a sole free speech area.
    While it has been FIRE's experience that students and 
professors with orthodox religious views, conservative 
advocates, and bold satirists are more likely than other to be 
censored under the current campus climate, we all have an 
interest in free speech of our Nation's students. Not only are 
all students affected by these over-broad policies, and 
students of every political stripe are punished if they cross 
certain often arbitrary lines, but everyone suffers when any 
side of an important debate is stifled, silenced, or otherwise 
quashed.
    And make no mistake about it. The war on free speech is 
often not ideological at all. Campus censorship is quite often 
a simple naked exercise of power. Take, for example, Shaw 
University, where a professor was fired for, quote-unquote, 
``faithlessness and disloyalty'' for circulating a document 
that was simply critical of the university president. Colleges 
and universities too often view criticisms of their policies as 
tantamount to sedition.
    If there is one constant in the history of free speech, it 
is that the censors of one generation often become the censored 
of the next. This vicious cycle of censorship teaches citizens 
to take advantage of any opportunity that they have to silence 
those on the other side. Students educated in this environment 
can hardly be blamed if they come to view speech as little more 
than a tool that one must do their best to deny their enemies, 
rather than as a sacred value.
    FIRE hopes we can put an end to this vicious cycle of 
censorship with this generation. With the help of a coalition 
of individuals and organizations from across the political 
spectrum, we can teach the current generation that a free 
society's cure to bad speech is more speech.
    FIRE believes that the best way for Congress to ensure 
intellectual diversity on campus is to work to remove the often 
unlawful restrictions on speech that currently exist. When 
students and faculty do not have to fear punishment for 
expressing their deeply-held beliefs, no matter how outrageous 
or unpopular, greater intellectual diversity will result.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Lukianoff may be found in 
additional material.]
    The Chairman. Mr. Dick?
    Mr. Dick. Mr. Chairman, thank you for the opportunity to 
speak here today. As you said in your introduction, I am a 
third-year student at the University of Virginia.
    When I came to college 3 years ago, I expected to find an 
institution dedicated to free inquiry and the open competition 
of ideas. Now, for this expectation to be realized, however, it 
seems that two things must hold constant. First, the students 
must feel secure in their ability to speak and express any idea 
or viewpoint without fear of punishment, and second, the 
university must refrain from using any of its institutional 
power to privilege ideas, certain favored ideas, over others.
    Now, in my time at UVA, I have seen that both of these 
principles have been compromised as certain individuals and 
groups have sought to take control of the university for a more 
politicized function. These individuals and groups seek to use 
universities and to politicize them and not treat liberal 
education as an end in itself, but as a means to a political 
goal, and this goal manifests itself variously in the 
eradication of social inequalities, the alleviation of 
oppression, or the rectifying of injustices.
    So from these goals that they have in mind, they argue that 
the equal competition of ideas and the free speech that should 
be afforded to students in fact only perpetuates the past 
injustices that our society has allowed. So they argue that 
these things can be curtailed or privileged, depending on the 
views, with a progressive aim in mind.
    So these advocates have succeeded to some degree at UVA, 
and as they have succeeded, liberal education has declined, and 
I am going to tell you a little bit about the policies that 
they have advanced. The policies are of two types, first, those 
that limit free expression, and second, those that unfairly 
privilege certain views over others.
    Earlier this semester, as you also mentioned, myself and 
some other concerned students at the university founded the 
Individual Rights Coalition, which is a nonpartisan 
organization dedicated to the defense of liberal arts education 
and to the defense of the marketplace of ideas. One of the 
really heartening things that we have seen is the truly 
nonpartisan nature that we have been able to achieve. We have 
people on the left and the right who have stood up for free 
speech values. I, myself, am a liberal, but we have college 
Republican members and university Democrat members in the 
organization. Although all of us have a different vision of how 
we think society should be, none of us is willing to sacrifice 
the liberal arts environment to try to achieve our political 
goals.
    So I am going to tell you a little bit about the different 
policies that we are trying to combat. In UVA's Discriminatory 
Harassment Policy printed in our Undergraduate Record this 
year, the policy warns students against unreasonably 
interfering with a person's work or academic performance 
through speech, an then it went on to list examples. These 
examples included directing racial or ethnic slurs at someone, 
ridiculing a person's religious beliefs, and my personal 
favorite, telling persons they are too old to understand a new 
technology. [Laughter.]
    At best, these examples imply a threat of punishment for 
constitutionally protected expression at a public university, 
at Thomas Jefferson's university, no less. But even worse, they 
lend definition to how the administration defines unreasonable 
interference.
    Now, if these examples can be construed to unreasonably 
interfere with someone's educational pursuits, then a whole 
category of speech becomes threatened by analogy. Would 
religious satires count as ridiculing someone's religious 
beliefs? If Mark Twain were at the University of Virginia 
today, could he write all the things that he had? Do racial or 
ethnic slurs include passionate arguments that offend someone 
on the basis of race, when you get into arguments on racial 
preferences or affirmative action in higher education?
    The simple fact that these questions can be asked 
illustrates a real problem because students don't know when 
they are going to be punished and oftentimes choose to silence 
themselves rather than risk being punished by the 
administration. So you get a situation the students are 
silencing themselves, and it is often the students who have 
views that are widely disfavored or views that are in the 
minority on the campus and you have people who see, when they 
see that their views disagree with the administration, they 
hesitate to express those views in a passionate way. And at 
Thomas Jefferson's university, of all places, this bespeaks a 
really sad State of affairs.
    There are other examples of codes. Our Sexual Harassment 
Policy warns against jokes of a sexual nature or comments about 
physical attributes and things like this. So there is a 
definite amount of free speech that we feel is unduly infringed 
upon.
    Now, as a columnist with the student newspaper, I have 
wondered how these policies have been applied in the past, so I 
have written university officials on a number of occasions, 
trying to get them to divulge the past case records, but I have 
been systematically denied under the supposed concern of 
confidentiality. The university has said that they can't 
release these records because they are protected under the 
Federal Educational Rights and Privacy Act. So together with 
the vague nature of these codes and the lack of knowledge of 
how they have been applied in the past, there really is a great 
chilling effect on free discourse at the university.
    But the most evidence of the politicization of UVA is not 
in speech codes but rather in the recent efforts of some groups 
on campus to impose mandatory diversity training programs. Now, 
some of you may have heard of these things on other campuses, 
but it is basically that what has been proposed at UVA is a 
program centering on issues of race, ethnicity, gender, and 
other controversial social issues and this trying to be made 
mandatory. This is something that has been under discussion at 
the university and the mandatory part of it would be that 
students would be blocked from registering for classes until 
they completed this program, making it mandatory in the 
strictest sense of the word.
    When this program was proposed, one administrator described 
the purpose of the program as providing entering students with 
the opportunity to gain insights into the way their cultural, 
ethnic, or racial expectations and experiences influence their 
interaction with other students, faculty, and staff from 
different backgrounds, as if this were something that could be 
truly taught. And another faculty member described it as 
getting students to confront their own prejudices and areas of 
misunderstanding.
    So this program is really motivated by the idea that 
students are coming to universities with prejudices and 
misunderstandings about issues of race and identity and 
different social issues and that students need to be cleansed 
of these different opinions and ideas that are unprogressive 
and unsatisfactory. So by using the administration's power to 
block students from classes or in other areas of students' life 
to sort of make students go through these training programs 
that include a certain partisan message.
    So we have had some success, the Individual Rights 
Coalition, at combating this, but the administration maintains 
that such programs are still under serious consideration. A lot 
of the concern that we have had comes from what we have seen 
implemented at other universities, diversity training programs 
at other universities.
    One quick example is something, a film called ``Blue 
Eyed,'' which is a movie that is distributed to a bunch of 
different campuses. In it, a diversity trainer named Jane 
Elliott teaches a lesson about the nature of oppression and the 
plight of racial minorities on college campuses and the way she 
does this is she takes a group of blue-eyed individuals and she 
ridicules them and insults them and yells at them for a few 
hours on videotape, and supposedly, this is supposed to make it 
analogous to the situation that racial and ethnic minorities 
have in society every day.
    So she yells at them. She pushes one individual to the 
brink of tears, at which she tells him, ``You have no power, 
absolutely no power, quit trying,'' and then says, ``What I 
just did to this individual today is what Newt Gingrich is 
doing to you every day and you are submitting to that 
oppression. I am doing this only for 1 day to little white 
children. Society does this to children of color every day.'' 
And then as a prescription for the problem, she says, ``It is 
not enough for white people to stop abusing people of color. 
All U.S. people need a personal vision for ending racism and 
other oppressive ideologies within themselves.''
    The point of this film is clear, that America is an 
unbearably racist society, that it is threatened by 
overwhelming forces of oppression, and that these can only be 
overcome by sweeping institutional changes. Instead of treating 
this as a viable topic for debate, this is something that is 
being trained. This type of claim is being trained in the 
students at universities across the country. So that is 
something that we want to see not treated as an objective truth 
that students should be trained on, but something that should 
be open to debate.
    So we think that this sort of thing is allowed because of 
the intellectual uniformity of our administration. Most of our 
administrators are overwhelmingly on the left of the political 
spectrum, but we don't see that as a problem necessarily as 
much as the fact that they are all of the same political view. 
So they are susceptible to use their power toward a partisan 
end because they see certain programs, like diversity training, 
not as viewpoint discriminatory, but more as just a way to 
bring about a positive change. So we think that things could 
benefit from maybe a little bit of diversity of viewpoints 
there.
    In summary, we really think that the two main areas that 
trouble UVA's intellectual climate are, first, the policies 
that restrict free speech, and second, policies that unfairly 
privilege certain views over others with a sort of progressive 
aim in mind. If liberal arts education is to be preserved, 
freedom of speech and freedom of thought must be firmly 
secured. Students and faculty must feel confident in their 
ability to enjoy the full protection of their free speech 
rights. The administration must also refrain from instituting 
mandatory training that seeks to direct or control student 
thought on controversial issues. And most importantly, for 
higher education to maintain its integrity, it must be treated 
and viewed not as a means to a political end, but as an end in 
itself, as a highest end, where people can come to critically 
enhance their minds and to learn about the free discussion of 
ideas. Thank you.
    The Chairman. Thank you, Mr. Dick. I think that was an 
extraordinarily good summary of the issue, especially your 
closing comments as to what the purpose of a university should 
be and how it should be structured.
    [The prepared statement of Mr. Dick may be found in 
additional material.]
    The Chairman. I might direct my first questions to you, 
therefore. Do you run into colleagues, other folks attending 
the university, who are taking courses which clearly have a 
teacher who may have a strong political viewpoint, that find 
that if they express their viewpoint in the classroom, it may 
affect their grade or the way they are treated and, therefore, 
adjust their performance in the classroom to try to conform?
    Mr. Dick. I certainly have, and this is something that--due 
to the nature of what I am studying, most of my classes haven't 
been very heavily political. I am taking classes in 
neuroscience and some nonpolitical philosophy. But I do know 
people who have taken classes in areas dealing with race and 
gender and things like that where they have had professors who 
are not only active in the university community, but are very 
vocal on the national scene so that their views are very well 
known.
    Students often in those sorts of classes, when they have a 
professor who is very passionate about the issue, they will try 
to bring up objections to these things and they don't feel that 
they are being afforded a necessary degree of impartiality by 
the professor, that the class is seen as sort of getting 
students to accept a certain viewpoint rather than as a forum 
where students can discuss all different viewpoints and the 
professor will evaluate all those fairly based on just the 
strength of the argument, not on the content of that argument.
    So I definitely have run into that and that is something 
that always really breaks your heart, especially when you are 
at a great university and you see all these opportunities for 
fair discussions to happen and you see professors who you are 
supposed to trust really subverting it.
    The Chairman. Is there a forum at UVA where you can raise 
that issue? In other words, if you think that basically the 
course is indoctrination that doesn't allow alternative views 
and you want to express an alternative view, is there some 
recourse?
    Mr. Dick. That is what we are trying to provide with the 
Individual Rights Coalition. We have not been aware of anything 
that existed before. I mean, you could always go to the 
administration, I guess, but the feeling among most people I 
know is that the administration generally wouldn't take that 
kind of thing seriously. So that is what we are trying to do. 
We think that just getting people's awareness raised about 
these types of things will help. Just by writing about it in 
the newspaper and things like that, we hope to be able to 
provide a better area for people to think about those sorts of 
things.
    The Chairman. You mentioned that with this diversity 
program that is being proposed, your concern is that it is 
going to be basically a reeducation-indoctrination program as 
versus an open free-for-all discussion of how people are 
treated in our society.
    Mr. Dick. Correct.
    The Chairman. Is that consistent with the Jeffersonian 
principle of education?
    Mr. Dick. I would have to say not, which is one of the 
things that we are trying to use as a leverage in our 
discussion of this issue at the university and we hope that it 
is going to be successful.
    The Chairman. I think Ms. Neal quoted Jefferson as saying 
something to the effect of it is all right for people to be 
wrong as long as people with reason are allowed to rebut them.
    Mr. Dick. Yes.
    The Chairman. I take it you don't think people of reason 
are necessarily given a chance to rebut on occasion.
    Mr. Dick. That is correct.
    The Chairman. Ms. Neal, I was interested in your proposal. 
I personally don't see that there is a significant Federal role 
that we can set forward. I am trying to use the sunshine effort 
here. But I was interested in your proposal that outlined a 
series of things that trustees could do. Do you have this in a 
format that was presented to trustees across the country and 
have you had any response from various groups of trustees on 
this statement of how a campus that is open to fair dialogue 
from all viewpoints should be functioning?
    Ms. Neal. A new organization called the Institute for 
Effective Governance has just been launched which focuses on 
providing services to trustees. This most definitely would be 
one of those, because clearly defending the academic freedom of 
the institution is one of the most critical jobs for a trustee. 
This is a fiduciary obligation of that trustee. And the 
Institute for Effective Governance certainly provides guidance, 
written and otherwise, to trustees on how to do that.
    I think listening to Mr. Dick here talking about what are 
the best ways to find out whether there are various opinions 
being offered in classes or whether or not students are feeling 
that their opinions are suppressed really again falls back on 
trustees, and primarily to set up processes that allow 
administrators to monitor, if you will, or at least to review 
intellectual diversity in classes, to ascertain whether 
students are exposed to diverse points of view, whether or not 
speaker series are open to diverse points of view.
    I think this is something that trustees individually don't 
want to get involved in. What they want to do is establish 
procedures and make it clear to their administrators that these 
are important goals of academic freedom and intellectual 
diversity and that they expect to have their administrators 
uphold those goals and report back to them to establish the 
facts.
    The Chairman. Is there a systemized way that you are 
planning to distribute this, or is it just going to be----
    Ms. Neal. Well, I am glad you have asked me. Most 
definitely, we will produce a document momentarily that will 
outline this.
    The Chairman. I think it comes to Dr. Johnson's point. Dr. 
Johnson, in most universities, especially large universities, 
but I suspect it is true in smaller universities and colleges, 
isn't the dominant driver of what the philosophy and culture of 
the university is going to be, the faculty? And how does a 
board of trustees ever confront the fact that the faculty is so 
overwhelmingly influential and the fact that they usually, in 
many instances, are so politically correct?
    Mr. Johnson. Well, I think there are two issues here. We 
use terms like ``left'' and ``right'' quite frequently in the 
political realm and in the academic realm, but they really do 
mean very different things in the academic realm.
    The idea that the left within the academy is reflected at 
Brooklyn College would consider every member on this committee 
a conservative, because after all, you all are figures in 
power. It gives you a sense of what some of the ideas are.
    The principles of academic freedom----
    The Chairman. I will explain that to Senator Kennedy when I 
see him.
    Mr. Johnson. Yes. [Laughter.]
    Or you may explain to Senator Clinton. One of the strange 
things about my case is I supported Senator Clinton in 2000 and 
that was viewed as further evidence of my conservative nature. 
[Laughter.]
    That is not a viewpoint that would be common, I suspect, on 
the floor of the U.S. Senate.
    There is no way that any policy can violate academic 
freedom or faculty self-governance and go anywhere 
realistically. But also, we have to deal with the realistic 
fact that too many faculties, again at smaller and, I think, 
nonelite universities in particular, hold ideas that are 
fundamentally disrespectful of intellectual diversity and we 
have to find ways to get around that.
    A lot of these institutions are funded by taxpayer dollars 
and taxpayers shouldn't be paying to have students receive one-
sided political viewpoints. And so as Anne Neal mentioned, 
trustees do have a fiduciary responsibility. I think the media 
has a responsibility to expose these issues. And I think there 
is a limited role for both State and Federal Governments in the 
degree to which they either fund or highlight these issues.
    Universities in the end can't sustain for long periods of 
time negative publicity. Administrators may not understand 
much, but they do understand that. And since these policies 
can't really be defended publicly, the extent to which they can 
be exposed is one way to encourage administrators to uphold the 
principle that I think all of us share.
    The Chairman. Mr. Lukianoff, I agree with that, and I am 
not sure what our Federal role should be. I am very hesitant to 
involve the Federal Government legislatively in any level in 
this debate, other than to have you folks come testify, and we 
intend to do a lot more of this, quite honestly, just to raise 
the visibility of the problem, which I think is acute.
    Mr. Johnson. One issue at least you could raise is that a 
Federal policy should be to do no harm. For instance, the AACU, 
that organization that I mentioned, is sponsoring a federally-
funded program funded by the Department of Education called 
``The Arts of Democracy.'' It is at 12 colleges and 
universities--Brooklyn College is among them--and it has as its 
stated goals that students who complete the program will 
understand the basic principles of American democracy and be 
able to make intelligent choices about contemporary issues in 
American foreign relations.
    And yet the course cluster at Brooklyn College contains not 
even one course in history, political science, philosophy, or 
economics that deal with political, diplomatic, or 
constitutional topics at all. Instead, these students will get 
courses like ``The Literature of Cultural Diversity'' or ``The 
Global Cinema.'' These are perfectly appropriate topics, but 
they aren't appropriate topics to teach students what democracy 
is or to teach students to make informed choices about 
international relations. It does seem to me that the Federal 
Government shouldn't be funding such programs on the grounds 
that they are teaching students what democracy is.
    The Chairman. I certainly agree with that, and it leads to 
a question I have for Mr. Lukianoff. Your organization is 
concerned about free speech. But how do you create a concept of 
free speech on a campus where there is no educational function 
that teaches what constitutional law is, which teaches what the 
concepts of the Constitution are, which bring to light what the 
essence of free speech is, what its Western value, structure 
is, why it developed as really the gravamen of our rights as a 
nation?
    It gets to Dr. Johnson's point, which is if you don't have 
broad overview courses which get into the basic philosophy of 
how you got to the Western value of free speech, how do you 
convince people that free speech has any relevance on a campus? 
I mean, isn't that one of your basic problems?
    Mr. Lukianoff. Well, I think to some extent that that does. 
Although it would be great to have greater diversity in courses 
that are offered, I think it underestimates the power of the 
idea of free speech. Michael Kent Curtis is a historian of 
First Amendment law and explains that the First Amendment and 
free speech was largely protected in the 19th century, not 
through formal acts but just for the populist idea of speech.
    It is a very powerful ideal that students do know even when 
they come to college. Even despite attempts to stifle it, FIRE 
has been largely effective just based on the fact that we are 
able to point out these injustices, to point out the violations 
of basic principles that Americans understand and thereby call 
universities to task, both public and private.
    That being said, I do understand one thing that 
universities really could do is do a better job of teaching 
students about living in freedom. I mean, one of the examples 
that I find terrifying is the phenomena of newspaper thefts. 
Over the last decade, over five--there are at least five dozen 
circumstances that are well-documented in which students have 
basically stolen the entire press run of student publications 
when they have published articles that some student group 
didn't like. Now, that is horrifying enough, and in at least 
half-a-dozen of those situations, the papers were burned.
    And what are universities doing to teach people not to do 
this, to respect the right of dissent and the right of free 
speech? Well, Berkeley recently passed a rule banning the theft 
of free student newspapers, but this was only after the Mayor 
of Berkeley, Tom Bates, was caught trying to throw out over 
1,000 copies of a student newspaper that endorsed his opponent. 
At Hampton University in Virginia, an entire press run of a 
student paper was stopped because they refused to put a letter 
by the president of the university on the front page.
    I mean, certainly at the very least we can ask them to 
teach by example. In some cases, this just requires us to hold 
university administrators to their First Amendment obligations.
    Now ultimately, at some level, people have to start 
learning--and this is cyclical--to appreciate the value of free 
speech as an internalized value, as James Madison hoped we 
eventually would. From an overview of First Amendment and free 
speech history, this ebbs and flows throughout history.
    But I have noticed that I do--and I am often accused of 
being overly optimistic--with the successes that FIRE has had, 
with the changes that I have seen on campus, I think that it is 
ready to happen. I think there are people on both sides of the 
aisles, whether Republican or Democrat or anything else, who 
want to see a return of ideals of individual rights and ideals 
of free speech. But as I said, I may be overly optimistic.
    The Chairman. I hope you aren't. I absolutely hope you 
aren't.
    Senator Alexander?
    Senator Alexander. Thank you, Mr. Chairman, for scheduling 
this hearing, and thanks to each of you for your comments.
    Universities are historically somewhat subversive, I mean, 
whether in this country or any country. In fact, the reason 
Japan was slow to create universities in its modern age was 
because of that. The leaders of Japan were afraid that the 
universities, being subversive, would overthrow the established 
order and challenge norms and values and cultures. So we expect 
that, and it is undeniably true that, with only some 
exceptions, the attitudes of the faculty and the thoughts of 
the faculty and cultural attitudes set the tone of the campus 
and most of those head in a uniform direction and it is often 
politically to the left. And we generally accept that.
    I think throughout our history we have thought, well, the 
children come out of a more conservative approach, by and 
large, and then when they go to college, they are exposed to 
different views and that makes them better people because their 
views are challenged.
    Before I came here, I was on the faculty of the Kennedy 
School of Government at Harvard for a year and a half, which 
was a wonderful experience, and the students there, even though 
that school made a very good effort, I think, to try to attract 
Republican students and more Republican faculty members and 
have more diversity, still many of the students said the people 
who get the best education here are the Republican students or 
the conservative students because their views are regularly 
challenged in the classroom, and those who get the least 
education are the more liberal students because their views are 
the same as their teachers and they are very rarely challenged.
    So all of those are just things that have gone on for a 
long time. But what is disturbing to me, and I agree with 
Senator Gregg, it is hard to see exactly what the Federal 
Government remedy would be, is that we have created in our 
country these wonderful colleges and universities with enormous 
freedom, yet on those campuses, too often, all the discussion 
and thought goes one way. You are not honored and celebrated 
for having a different point of view. That is not really true 
in physics or in the sciences so often. You are often 
celebrated for having a divergent view and proving something 
different and testing something else. But certainly in many 
areas on campus, that is true.
    It is true we have established enormous amounts of freedom. 
I mean, the Federal Government, in a way it resists doing for K 
through 12, pours lots of money into colleges and universities 
and gives it to the students and lets the money follow the 
students to the schools. I mean, that is a voucher. School 
choice is what we have in colleges and universities. Half the 
students have a Federal grant or loan to help pay for college 
and so they can go anywhere. They can go anywhere that is 
accredited and they can take these bizarre courses and we just 
let that go.
    And then we have accepted that tenure is a right of the 
faculty members, and that has gone to excess, but we accept 
that. So faculty are free to say what they want. Trustees are 
often there for a while. Students can go wherever they want. 
There is an enormous amount of freedom, yet in this country 
that celebrates liberty and freedom above all, we allow the 
discourse to just go one way.
    As an example of that, take the colleges of education, one 
of the most frustrating examples in American higher education. 
Even at very good colleges of education, all the thought is one 
way. You don't find 32-year-old young faculty members on their 
way to being dean doing great dissertations on how to expand 
the voucher program, or how to find new ways to reward teachers 
for teaching well, or how to encourage teaching of English as a 
second language. All those are not the accepted way to go.
    While I was at Harvard last year, the speaker at the 
College of Education was the sponsor of the ballot in 
California that won overwhelmingly to basically reject 
bilingual education and put instead teaching English as a 
second language, and that person barely received a respectful 
hearing when he tried to make a speech there. It was 
embarrassing. It was embarrassing to think that at a great 
campus, different thinking would have been frowned upon.
    So I have been listening and trying to think of how do we 
change with. I don't want to start here with laws, but the way 
we used to change it, the student newspapers used to have a lot 
to do with that. I mean, if you read Willie Morris's book on 
the Daily Texan and what that used to do in the 1960s, they 
changed the campus of the University of Texas. Of course, they 
were liberals running against conservative trustees, but they 
did change it on our campus in 1962. We were segregated at 
Vanderbilt University. The student newspaper fought that. Even 
though the student body voted to keep it segregated, we raised 
enough hell about it that the trustees had to change the policy 
and integrate the campus.
    So I wonder why the student newspapers aren't doing more. I 
wonder why there aren't faculty organizations that aren't doing 
more. I wonder why there is not a list in our country today--
U.S. News publishes a list of the best buys, the best liberal 
arts colleges. Why not an equally well publicized list of the 
colleges that provide the most freedom of speech?
    One thing we might do, Mr. Chairman, at this hearing is 
invite the accrediting agencies to come for a round. When I was 
Education Secretary, I noticed that the accrediting agencies 
were enforcing their politically correct ideas on the colleges 
themselves, which I thought was none of their business. So I 
invited them in and said, I will disaccredit you if you start 
disaccrediting colleges because of the viewpoints of the 
faculty members or the ideas there. We might see whether that 
is one proper role we could have. I am interested to see what 
we might do.
    One other thought I would like to make, I would like to 
direct a question to Dr. Johnson. At the heart of all this in 
our country, I think, has been over the last 34 years a failure 
on the campus to recognize and honor the study of what one 
might call American exceptionalism. There is a professor named 
Seymour Martin Lipset, with whom you may well be familiar, who 
has written about that, and most average Americans would think 
about that as the study of America as a unique country, not 
always better, but different, and what are the qualities that 
cause us to be different and what are the ideas that hold us 
together.
    That really is the conventional view of America, one I 
believe in and one which still I hope would be taught but is 
often not being taught. But my sense is that our politics and 
our universities and our dominant thought in our country of 
intellectuals is to reject that idea and to say America is just 
a lucky country, a big place where the people are from 
everywhere, who should be happy there are here and richer than 
most people and should not bother each other very much and 
celebrate where they came from and not worry too much about 
where they are.
    Now, at least that ought to be a legitimate debate, and my 
sense of things is that in American history, U.S. history--you 
wouldn't be supposed to call it American history anymore, but 
in U.S. history, that argument between--the emphasis on 
diversity at the expense of unity is at the root of a lot of 
this problem on American campuses. But it seems to me that is 
also a wonderful invitation to various faculty members, student 
organizations, foundations, Congressmen, speakers, rabble-
rousers from all directions to go out and complain about that 
and change that and become trustees of colleges and 
universities and make lists of places that do a good job of 
this and places that do the worst job of this.
    I wonder, Dr. Johnson, what you run into as a professor of 
U.S. history in this discussion of American exceptionalism or 
lack of it and whether you feel like that is at the root of the 
political correctness, or to what extent it might be.
    Mr. Johnson. Well, I think that certainly since the 1960s, 
the academy with regards to professors of U.S. history has 
changed and there has been a great deal more attention to 
issues of race, class, and gender, people who were 
underrepresented, it was perceived, in the earlier studies of 
American history. And initially when this started, the idea was 
that it would create a more balanced view of the American past, 
which is a perfectly reasonable goal. I think what we have seen 
over the last ten or 15 years is a movement to interpret this 
as the only version of the American past.
    I do think on this issue there is something of a tiered 
system which I find particularly troubling in American higher 
education. Senator Gregg mentioned that often students come 
from conservative backgrounds, small ``c'' conservative 
backgrounds, and they go to more liberal faculty and expand 
their knowledge, and I think that that is largely true at more 
elite institutions. These students come in often with good 
educations, and if they are being propagandized to by faculty, 
they can recognize that and they can challenge that.
    At middle-level and less-elite institutions, a place like 
Brooklyn College, frequently our students don't come in with 
terribly impressive educations and this is their one chance to 
get a good education. And so if they are getting totally 
slanted views, they have no chance of remedying that.
    I think that within the academy, at an institution like 
Harvard or even at the University of Virginia, there is enough 
peer pressure and particularly enough emphasis on research 
which creates new knowledge and makes dogmatism at least 
difficult to sustain, that it makes it hard to have a 
politicized curricula, whereas at mid-level schools, the 
emphasis on research sometimes is not quite so high and this 
is, I think, a proper area for administrators and trustees, 
that they can emphasize things like the promotion of research 
or the promotion of free speech that will not correct biases in 
and of themselves but will make it more likely to promote an 
intellectually diverse campus.
    Senator Alexander. Ms. Neal?
    Ms. Neal. I would like to pick up on your accrediting 
question because I think it is a very good one, on whether or 
not accrediting might not be an area for intervention. In fact, 
on the House side, there is a bill that has been introduced 
which would decouple the accrediting system from the provision 
of student loan moneys, in large part because of its belief 
that the accrediting system has not been effective, that, in 
fact, as you say, more often than not, it has imposed 
politically correct mandates on institutions, or if it has not 
done that, it has been watching while these various politically 
correct intrusions are occurring and has said nothing as we 
have seen this grow and grow and grow at different 
institutions.
    So I think, to my knowledge, there is not a Senate version 
of that bill, but there might very well be some important look 
at it as a way of getting at some of these issues.
    You also raised some questions about the need to be exposed 
to broad areas of learning. This is an area in which the 
American Council feels very, very strongly. We have put out a 
book called Becoming an Educated Person: Towards a Core 
Curriculum, because it is our belief that for students to be 
able to make up their own mind, to speak to their professors 
and to be engaged as intelligent citizens, that they need broad 
exposure to general areas of knowledge. And as you have heard 
from any number of us here today, that is not the case. If 
students obtain a coherent education, it is often out of luck 
rather than out of the requirements that institutions offer.
    In our booklet, we highlight various institutions, 
including Brooklyn, which has had a marvelous core curriculum 
in the past and that has definitely exposed students to general 
areas of knowledge. We think this is very important and we hope 
that more and more institutions will do that.
    You raised the question of teacher ed, I think also a 
critically important area worthy of focus. Again, the American 
Council has a project called Trustees for Better Teachers, 
because again, we feel trustees should be concerned about the 
quality of teachers being produced, the need for those teachers 
to have strong understanding of substantive courses and 
disciplines and not simply focusing on pedagogy, which in many 
instances has been shown to be virtually social engineering 
rather than instruction. So we agree with you that that is a 
problem and it is something that trustees can be actively 
involved.
    We think another solution here again is an organization 
like the Institute for Effective Governance, which is there 
working with trustees, providing them independent sources of 
information so that they are not entirely reliant on 
administrators, to be able to address these very, very 
important issues of freedom and quality on college and 
university campuses.
    Senator Alexander. Mr. Chairman, I guess my time is 
probably about up, but I mentioned my time at Harvard for a 
year and a half. I didn't want to be too critical there because 
I found at the same time, as Dr. Johnson said, one would have 
to be pretty dull not to find some diversity there. I mean, 
there is Harvey Mansfield teaching constitutional law and 
Samuel Huntingtom, a great political scientist, and Paul 
Peterson doing work on school choice. So there is plenty of 
diversity there if one would go look for it, and the dean of 
the school where I was, I am sure, in a not very popular 
decision, supported President Bush's decision on Iraq.
    When it is a good institution and the leaders of the 
institution make a special effort to see that many views are 
represented, that solves most of the problem, it seems to me, 
and that is what we really ought to be encouraging ways to do 
more of.
    The Chairman. Thank you, Senator.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman. It is a 
fascinating subject. I have felt that in the recent years that 
there has been a failure in the academy, a moral and political 
failure to lead effectively, to understand the challenges that 
America faces, and we can all disagree. Maybe I am in error, 
but I would say that the American people have got pretty good 
judgment about these matters and there is a tremendous gap, 
between faculty on most of our college campuses and the 
mainstream American values.
    I saw the numbers--I think I have them here. I don't know 
if you have talked about them, Mr. Chairman. In the IPSO-Reed 
Survey, 72 percent of the faculty members at 140 American 
colleges described themselves as politically left. Only 15 
percent claimed to be politically right. An even smaller 
percent, 14 percent, claimed to be in the middle. The bias was 
found to be worst among the humanities and social science 
faculty, which often discuss political and social issues in 
their classes. That is where these matters are discussed. This 
bias can be found in the classroom.
    If liberal arts colleges represented a variety of ideas and 
provided a student with well-rounded education, it would serve 
them well in their life. As a graduate of a liberal arts 
college myself, Huntington College, I am an absolute believer 
in the liberal arts. I think it is just wonderful and I cherish 
that. I am on the Board of Trustees of my college. I was the 
chairman of the alumni association. I try to support that 
institution.
    But I have seen and talked with students on a regular basis 
that causes me to believe it is not so free, is not so liberal 
in the classical sense of what liberalism is. It is more of an 
environment in which our freedom is not respected and different 
views are not respected.
    I remember as Attorney General, and Ms. Neal, I would like 
to ask you a little bit about this, we had a situation 
involving whether or not the United States military--and you 
are a lawyer, I understand--whether the United States military, 
a JAG officer could come on the campus of the University of 
Alabama School of Law, one of the top 50 law schools in 
America. Based on this accrediting agency's decision that 
President Clinton's policy of ``don't ask, don't tell,'' they 
declared it discriminatory. Therefore, they would not allow the 
United States military, who protects our liberties and 
freedoms, to even come on the campus to interview students 
about perhaps making the military a career, which you want the 
best students and the best universities with the most open 
minds as lawyers in the military. So we ended up passing a 
statute in the Alabama legislature that specifically said they 
could come on campus.
    I recently have received information on the accrediting 
agency for universities. Auburn University is one of the best 
academic institutions and is just doing exceedingly well. They 
are not happy, the accrediting agency, with Auburn's Board of 
Trustees. They think they micromanage the business and they are 
also concerned about the firing of the football coach and they 
are talking about not accrediting Auburn University because 
they have disagreements about this.
    First of all, is there a concern that some of these 
entities have political biases and that it intimidates 
universities and liberal arts colleges, and in order to get 
good evaluations and be accredited, they sometimes feel 
pressured to be politically correct on the issues that they 
might not otherwise?
    Ms. Neal. I certainly feel that the accrediting--we have 
looked at it at the American Council and have found that the 
organizations look very much at inputs rather than what the 
institution is actually producing, rather than looking at 
outputs. But there is no question that there have been past 
cases where various, if you will, PC criteria were brought to 
the accrediting process. And, of course, this can be costly and 
can take significant amounts of time on the part of the 
institution.
    We think that, clearly, the fact that we are finding 
institutions that have no core, where academic freedom is being 
diminished, where prices are going up, all the while that the 
accrediting associations have supposedly been responsible for 
overseeing the quality, that it does raise serious questions 
about the usefulness of the accrediting system as it now 
exists.
    As I indicated, there is a bill that would decouple, but I 
think there is also a great opportunity to give the States the 
accrediting responsibility, as well, so that you have 
competition within the accreditation system. Right now, you 
have a set of regional accreditors and there is virtually no 
competition, and so as you say, institutions are intimidated or 
at least have very little choice when the accreditation system 
has to go into play. If States were allowed to provide an 
alternative source of accreditation, you would at least bring 
some competition to that system. You presumably could get a 
greater focus on outputs, what our institutions are actually 
producing, as opposed to simply looking at inputs.
    Senator Sessions. Well, I certainly think so. I know my 
little alma mater of Huntington College, they are very 
intimidated by this group. They want to get a successful 
rating.
    Well, who are they? How do they get selected? What kind of 
government money do they get? Where do they come from? How do 
they have this power?
    The Chairman. Would the Senator yield on that? We are going 
to be holding a hearing where we will answer the questions of 
the Senator. We are looking forward to that. Senator Alexander 
suggested it, and obviously your interest suggests it. I think 
it is worth holding a hearing on, so we will be pursuing those 
questions.
    Senator Sessions. I won't pursue that a lot longer, then, 
but I appreciate your comments because it is something I have 
now seen in at least three different instances that have 
concerned me significantly. As an American that believes in 
democracy, I like to know who people are, where they come from, 
and by what authority do they get to raise these questions and 
make these demands.
    Mr. Dick, I have talked to a lot of young people that 
worked for me and in other instances about what goes on on the 
campuses and I get the impression that students are just sort 
of hunkering down in a lot of these classrooms and letting it 
go over the top of their heads. I notice a recent survey by 
Harvard University Institute of Politics found that the number 
of students who declared themselves as Democrats has decreased 
from 34 percent to 29 percent from 2000 to 2003. The number of 
Independents has increased from 33 to 41 during the same 
period. This is during a time in which the ratio of Democrat to 
Republican professors in the top-ranked colleges was ten-to-
one, 1,397 Democratic professors to 134 Republican professors.
    Well, I think a Republican can teach a class fairly and I 
think a Democrat can teach a class fairly, but I have a sense 
that college students are, rather than engaging their 
professors, either intimidated or just sitting down, turning in 
their paper, and not really engaging in the ideas. Is that 
fair?
    Mr. Dick. Well, it is interesting that you brought up the 
fact that more students seem to be becoming conservative at a 
time when both the administration and the faculty are becoming 
more liberal and I think that part of that has to do with the 
fact that there is a natural instinct toward rebellion. I mean, 
one of the best ways you can make a college student more 
conservative, I think, is to get a bunch of liberals in power 
doing a bunch of ridiculous things. Just out of natural 
resentment, they are going to say, just for spite, we are going 
to rebel against this.
    But yes, certainly there is the sense that if you have a 
professor who is some radical who just rants about things and 
doesn't respect anybody's views, then students are going to 
say, okay, I am just going to get done what I need to to get my 
grade and I am going to kind of treat this as an obstacle that 
I have to jump over rather than as something that I can engage 
in.
    So it seems that there is a certain responsibility and the 
opportunity is there for professors who could treat things, 
treat subjects as genuine areas of inquiry, and a lot of times, 
I think that the temptation is just too great when the 
professor has a subject and they feel strongly about it and 
they almost want to use their power just to convince students 
rather than encouraging a dialogue. So, yes, I think that is a 
very interesting point that you make.
    Senator Sessions. I salute you for the leadership you and 
your colleagues and friends there at the University of Virginia 
are taking to restore the great democratic ideal of Thomas 
Jefferson, who swore opposition to any domination of the mind 
of man, as I recall.
    Mr. Chairman, I share your dubiousness about how much 
legislation we ought to pass. If accrediting agencies are 
authorized and funded by us, maybe we need to look at that, and 
I am glad you are.
    I don't take the matter lightly. I feel that a student 
ought to be able to go to a State university and have some sort 
of balance of opinion at that university, and I think trustees, 
taxpayers, and politicians have a right to be concerned if 
there is an excessive, obsessive almost, movement in one 
political direction as opposed to fairness and objectivity. It 
goes against our heritage, and we have all these examples of 
just ludicrous actions by faculty that strike at the heart of 
freedom and seem to be just amazing.
    I will ask one more question if you will allow me, Mr. 
Chairman. I thought of the great debate we had a number of 
years ago about the right to burn the flag. We have now 
declared that the right to burn the flag is a constitutional 
right. But at Central Michigan University, a student was 
criticized for displaying the American flag on his door. I 
mean, what is happening here? What is behind this mentality? 
Because they thought it would offend some students on the 
campus.
    Mr. Lukianoff. Oh, he wasn't just criticized, Senator. He 
was actually made to take it down. That, in addition to anti-
Osama bin Laden posters, and this is right in the wake of 
September 11. The RA and the other administrators thought that 
students from other nations would find that offensive.
    Senator Sessions. Well, things offend me. Nobody worries 
about me being offended. [Laughter.]
    Would anyone like to speculate on the mentality here? I 
know you could talk for hours. We don't have that time.
    Mr. Lukianoff. Sure.
    Senator Sessions. But just briefly, what is it that causes 
people who ostensibly are great believers in free speech to 
somehow drift into curtailing what we have classically 
understood to be free speech?
    Mr. Lukianoff. Well, for one thing, a lot of these 
administrators take incredibly paternalistic and patronizing 
approaches to their students, believe that they essentially--at 
Florida State University, for example, as part of its 
disciplinary process, it says flat out part of our goal is to 
reeducate students about their attitudes, beliefs, etc.
    In that environment, peace and quiet has been placed as 
being more important than cantor and debate. If you want to 
keep everything quiet, then yes, let us have uniformity of 
belief. We will punish people who dissent and, therefore, we 
can avoid the nasty and painful process of actually thinking 
hard about things.
    And even though I just played it optimistic, I am going to 
play quite cynical right now. I actually--from what I have seen 
and just the incredible knee-jerk sort of reaction that a lot 
of these universities have to any opinion that offends them, to 
silence it, I believe that we are raising a generation of 
students, if they have certain political beliefs, who don't 
even know how to defend them anymore because they have never 
had to.
    I see that there is an incredible double standard in the 
application of speech codes and of all these rules. To say that 
views that are crushed are conservative is also, as Professor 
Johnson pointed out, not really conveying the whole idea. I 
mean, the idea that an American flag an anti-Osama bin Laden 
poster would be offensive--I am a Democrat, I consider myself a 
liberal, but obviously, the idea that that is not perfectly 
within the idea of protected speech means that there is 
something seriously gone wrong with the respect for free speech 
on college campuses.
    Mr. Dick. I also would like to comment real quickly on 
that. You were asking for the underlying motivation for 
somebody who would want to take down an American flag in a 
residence hall. I think that often that something like that 
being censored is really harmful to intellectual diversity, but 
it is often done in the name of diversity, and diversity of a 
type of ethnic, racial, or national diversity, and that you see 
administrators and people who are in the Office of Housing and 
Life and they see themselves as having the responsibility to 
make their campus more welcoming to attract racial and ethnic 
minorities and they see the American flag as something that 
would be sort of, you know, a really patriotic symbol that 
would make someone from another country or another culture 
uncomfortable.
    So they say that in order to create a welcoming 
environment, that they have to take this thing down. I don't 
know how they construe the American flag to be some sort of 
offensive or unwelcoming symbol, but it seems that that is the 
view. And so a lot of this censorship that is done to harm 
intellectual diversity is done in the name of diversity, just 
diversity of a different kind.
    The Chairman. That is a brilliant answer, by the way, and 
very accurate.
    I would just note for the record that so far, three of the 
four members of this panel have identified themselves as 
liberals. [Laughter.]
    Nobody can say we stacked this panel. [Laughter.]
    In any event, we do intend to continue to pursue this issue 
with sunshine. We will be holding hearings on textbooks, 
specifically textbooks in high schools dealing with American 
history, and we will be holding a hearing on accreditation, and 
we will be holding other hearings on this issue of how we open 
our campuses up so that different views can be heard without 
people being subjected to some sort of penalty, either direct 
or indirect.
    We thank you very much. This has been an extraordinarily 
good panel. Thank you for your time.
    The subcommittee is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                    Prepared Statement of Anne Neal
    Mr. Chairman and members of the Committee: One pundit on higher 
education has described our colleges and universities as islands of 
oppression in a sea of freedom. While the comment is humorous, the 
observation is quite serious. The lack of intellectual diversity on our 
college and university campuses is increasingly troublesome and of 
profound concern to all of us interested in the education of our next 
generation of leaders.
    As early as 1991, Yale President Benno Schmidt warned that, ``The 
most serious problems of freedom of expression in our society today 
exist on campuses. The assumption seems to be that the purpose of 
education is to induce correct opinion rather than to search for wisdom 
and liberate the mind.'' In his last report to the Board of Overseers, 
retiring Harvard president Derek Bok similarly warned: ``What 
universities can and must resist are deliberate, overt attempts to 
impose orthodoxy and suppress dissent. . . . In recent years, the 
threat of orthodoxy has come primarily from within rather than outside 
the university.''
    My organization, the American Council of Trustees and Alumni, was 
founded in 1995 and is a bipartisan network of college and university 
trustees and alumni across the country dedicated to academic freedom 
and excellence. Since our founding, we have had occasion to evaluate 
colleges and universities in terms of academic freedom and academic 
offerings. And what we have discovered confirms these eminent 
university presidents' worst fears.
    Rather than fostering intellectual diversity--the robust exchange 
of ideas traditionally viewed as the very essence of a college 
education--our colleges and universities are increasingly bastions of 
political correctness, hostile to the free exchange of ideas.
    Before I go any further, I want to make one principle perfectly 
clear. There is no more important value to the life of the mind than 
academic freedom. This is the value that Thomas Jefferson so vividly 
articulated in reference to the University of Virginia: ``We are not 
afraid,'' said Jefferson, ``to follow truth wherever it may lead, nor 
to tolerate any error so long as reason is left free to combat it.'' 
And that means permitting academics of all political stripes--with 
partisan or ideological commitments counting neither for nor against 
them--to engage in that exercise.
    But what is at issue here today is the other side of the equation, 
the student's right to academic freedom, the student's right to learn 
and hear both sides of controversial issues of the day. While there is 
much thoughtful teaching and superb scholarship across the country, 
there are also many examples--as I will outline in the next few 
minutes--of teaching and learning being put into the service of 
politics and ideology. As a consequence, our colleges and universities 
are failing at their responsibility to educate the next generation of 
leaders by rigorous and balanced exposure to significant-- theories and 
thoughtful viewpoints.
    Threats to the robust exchange of ideas on our college and 
university campuses come in many forms, but typically manifest 
themselves in the following ways:
    1. Disinviting of politically incorrect speakers;
    2. Mounting of one-sided panels, teach-ins and conferences;
    3. Sanctions against speakers who fail to follow the politically 
correct line;
    4. Instruction that is politicized;
    5. Virtual elimination of broad-based survey courses in favor of 
trendy, and often politicized, courses;
    6. Reprisal against or intimidation of students who seek to speak 
their mind;
    7. Political discrimination in college hiring and retention; and
    8. Speech codes and campus newspaper theft and destruction.
    Here are some examples.

                          DISINVITED SPEAKERS

    Former Secretary of State Henry Kissinger was disinvited by the 
University of Texas-Austin president because of threats by a fringe 
student group. The heckler's veto reigns.
    University of California trustee and recognized public figure Ward 
Connerly was disinvited by Columbia on the grounds that the university 
could not provide adequate security. Again, the protesting few limited 
the rights of the majority.

                     ONE-SIDED PANELS OR TEACH-INS

    Yale sponsored a teach-in examining the events of September 11 but 
was publicly criticized by Professor of Classics Donald Kagan for its 
utter failure to include a single spokesman in favor of military 
action.
    Brooklyn College sponsored a post 9/11 panel without any 
representatives of the U.S. or Israeli government's point of view. 
Professor Robert David Johnson condemned the panel as one sided, and--
as you will learn--paid dearly for doing so.
    At Columbia University, college professors convened a six-hour 
anti-war ``teach-in.'' One student, quoted in the campus newspaper, 
described the teach-in as nothing more than a ``fervid presentation of 
an exclusive viewpoint . . . where professors could express their 
viewpoints unopposed.''

              SANCTIONS AGAINST THE POLITICALLY INCORRECT

    In these cases, professors or students are singled out for 
punishment because of the content of their views. In the wake of 
September 11, a number of professors were sanctioned for being pro-war, 
while very few cases arose of professors being taken to task for anti-
war views.
    Duke University shut down a faculty member's website after he 
included an article advocating a vigorous military response to 
terrorism. The website was later reinstated, but the professor must now 
include a disclaimer that his views do not reflect the views of the 
university. Duke has never before required such a disclaimer.
    A University of Massachusetts administrator revoked a permit for a 
pro-war rally, while allowing an anti-war rally to proceed.
    A Florida Gulf Coast dean instructed employees to remove ``Proud to 
be an American'' stickers until negative public reaction prompted her 
to revoke the decision.

                        POLITICIZED INSTRUCTION

    At the University of California, a course description for ``The 
Politics and Poetics of Palestinian Resistance'' stated that 
``conservative thinkers are encouraged to seek other sections.'' The 
University called the description a failure of oversight and announced 
it would monitor the class to ensure it did not exclude or discourage 
points of view. The professor, a leader of the Students for Justice in 
Palestine, was not reprimanded.
    At the flagship campus of the University of Massachusetts (along 
with at least 30 institutions across the country, including Princeton 
and the University of California) students enroll in ``whiteness 
studies.'' At Massachusetts, the enrollees are required to participate 
in a ``privilege walk.'' According to the Washington Post, the field is 
``based on a left-leaning interpretation of history by scholars who say 
the concept of race was created by a rich white European and American 
elite, and has been used to deny property, power and status to nonwhite 
groups for two centuries.'' Note: students are not asked to evaluate 
this thesis but to absorb it.
    At the University of South Carolina a professor provided students 
with a set of discussion guidelines that asked them to ``acknowledge 
that racism, classism, sexism, heterosexism, and other 
institutionalized forms of oppression exist'' and called upon them to 
``agree to combat actively the myths and stereotypes about our own 
groups and other groups so that we can break down the walls that 
prohibit group cooperation and group gain.''
    At Arizona State University, a course on Navajo history restricted 
enrollment to American Indian students.
    Several Spanish courses at Florida International University are 
closed to non-Hispanic students.

                           ONE-SIDED FACULTY

    An Academic Study Survey conducted by Stanley Rothman, Emeritus 
Professor of Political Science at Smith College, the results of which 
are being released today, finds that half of American professors 
identify with the Democrats, a third call themselves independent, while 
a tenth of the respondents identify with the Republicans. A much higher 
percentage of faculty members surveyed-72%-describe their own ideology 
as ``left,'' while 15% self-describe their ideology as ``right.'' 
Eighty one percent of professors in the humanities and 75% in the 
social sciences identify their views as strongly or moderately left, 
while only 9% of respondents in these two fields hold strongly or 
moderately conservative views. Even in the science, math, business, and 
medicine sectors, faculty who identify themselves as Republican are in 
the minority.
    This would not be so bad if professors consistently offered 
different points of view. However, the concept of balance appears to be 
out of favor with contemporary academicians. This was starkly 
underscored this fall when the Faculty Senate at the University of 
California adopted a new regulation on academic freedom. This new 
provision removed the long-term prohibition against using the classroom 
``as a platform for propaganda'' on the grounds that in this new age 
``academic freedom does not distinguish between `interested' and 
`disinterested' scholarship.'' At a time when postmodernism reigns on 
our college and university campuses, the concept of the disinterested 
search for the truth has been supplanted by a conception of the world 
that views every issue in terms of race, class and gender.

                      DISAPPEARING CORE CURRICULA

    Even this ideological imbalance would not be fatal if students were 
given the knowledge and background that empowers them to think for 
themselves. But survey after survey by ACTA and others also show that 
students are no longer even being exposed to broad areas of knowledge.
    Rather than being introduced to foundational subjects such as 
history, natural science, literature, government, and economics, 
students are permitted to pick and choose from a smorgasbord of 
academic offerings that are often trendy and tendentious. In two 
studies conducted by ACTA, Losing America's Memory and Restoring 
America's Legacy, we discovered that not one of the top 50 require a 
course in American history of their graduates. Only five institutions 
required any history at all. Instead, students are picking from course 
offerings ranging from ``From Hand to Mouth: Writing, Eating and the 
Construction of Gender'' at Dartmouth and ``Global Sexualities'' at 
Duke to ``Witchcraft, Sorcery and Magic'' at Williams College.
    In this atmosphere, faced often with only one viewpoint and having 
very little or no information on which to make up their own minds, our 
next generation is truly being disserved.
    Now, many will argue that these are isolated anecdotes, that 
political correctness and the lack of intellectual diversity are not 
really a problem, that courses are handled fairly and that teachers are 
well aware of the need to let students speak their mind.
    But the fact is there are too many alarms from too many quarters to 
ignore what is happening. Whether it is ACTA or FIRE, Nadine Strossen 
of the ACLU, or the late Supreme Court Justice William Brennan (who 
once said, regarding college speech codes, ``They ought to just abolish 
all of them''), evidence of widespread limitations on intellectual 
diversity on our college campuses is now overwhelming.
    Only last weekend, two recent college graduates bewailed the state 
of affairs in the Wall Street Journal. And I quote: ``One would not 
dare question certain `truths' in the classroom for fear of being 
ostracized, vilified--or receiving a `grade adjustment.' An 
independent-minded renegade chooses instead to bite his tongue rather 
than face the inevitable wrath of his peers and, worse, his instructor, 
who ought to be facilitating an honest, open dialogue.''
    Given this substantial evidence, this committee is to be commended 
for raising awareness of this most critical academic freedom issue. 
``Sunlight,'' as Justice Louis Brandeis once observed, ``is a great 
disinfectant.'' By contrast, to ignore a problem or to be less than 
candid about it discourages a remedy.
    The next question, of course, is what is that remedy ought to be.
    The American Council of Trustees and Alumni respectfully submits 
that the solutions for this problem are not legislative mandates--but 
instead fall within the purview of college and university faculty, 
administrators, and boards of trustees. Statutory edicts on curricular 
matters are bound to raise academic freedom problems of their own. The 
remedy, as Madison wrote in The Federalist, would be ``worse than the 
disease.'' Therefore, ACTA recommends the following.
    Boards have a fiduciary obligation to protect the academic quality 
and academic freedom of their institutions. They should protect 
academic freedom--of both faculty and students--from internal as well 
as external threats. Faculty and administrators likewise have this 
obligation but, at many universities, they have clearly defaulted on 
this responsibility.
    Trustees should adopt a statement or resolution that all faculty 
are expected to present points of view other than their own in a 
balanced way and respect and nurture students' ability to make up their 
own minds on contentious issues.
    Trustees should adopt a policy underscoring that the focus of 
courses is intellectual development and the acquisition of knowledge 
and skills, not the manipulation of attitudes or engaging in political 
activism.
    Trustees should insist that their institutions offer broad-based 
survey courses designed to expose students to the best that has been 
done and said.
    Trustees should insist that speaker programs sponsored by the 
university present a range of points of view.
    Trustees should make clear that they will not tolerate ideological 
or political discrimination in the hiring, firing, or promoting of 
faculty. Trustees should monitor tenure decisions--both granting and 
denying--on a regular basis.
    Trustees should direct administrators and faculty to engage in an 
``intellectual diversity inventory'' to see whether students are 
exposed to diverse points of view in classroom readings, speakers 
series, etc., and whether partisan or ideological bias is influencing 
hiring and retention.
    Congress should hold periodic hearings to raise public awareness of 
this problem, and should encourage faculty, administrators, and boards 
of trustees voluntarily to conduct intellectual diversity reviews and 
to make the results public so that students, parents and taxpayers can 
see what the facts are.
    Congress should target federal grants to promote the study and 
teaching of American history, politics and the law. ACTA commends 
Senator Gregg for sponsoring S.1515, the Higher Education for Freedom 
Act, which focuses on this need. Thank you.

               Prepared Statement of Robert David Johnson

    Mr. Chairman, and Members of the Committee: My name is Robert David 
Johnson. I am a professor of history at Brooklyn College and The 
Graduate Center of the City University of New York, where I teach 
courses in U.S. political, diplomatic, and constitutional history.
    As a historian of the Senate, I am particularly honored to appear 
before the Committee. I have written books on the interwar Senate and 
on former Alaska senator Ernest Gruening, both published by Harvard 
University Press. I am now completing a study of Congress and the Cold 
War, which Cambridge University Press will publish.
    I survived an attempt by Brooklyn College of the City University of 
New York to deny me tenure on the basis of my ideas and academic 
values, an attempt amounting to an attack on the principle of 
intellectual diversity on campus, and as such, perhaps, of interest to 
this body. Though conceding that my accomplishments as a scholar and a 
teacher were first-rate, the college based its case on a handful of 
senior colleagues' secret letters, which came to be labeled the 
``Shadow File.'' CUNY chancellor Matthew Goldstein ultimately 
overturned Brooklyn's decision.
    The ``Shadow File'' letters, which attacked not only me but also 
several other untenured professors, condemned me for three violations 
of prevailing campus orthodoxy. First, I was deemed uncollegial for 
having objected, along with other, but tenured, professors that a 
college post-9/11 forum was unbalanced because none of its speakers 
supported either U.S. or Israeli foreign policy. The provost had termed 
the forum an educational event and allowed professors to dismiss their 
classes to attend it; I argued only that the college should not label a 
one-sided event educational.
    Second, I drew criticism for the standards that I employed in a 
search for a new professor in European history, when I joined several 
colleagues in urging the department to base its choice on the 
candidates' demonstrated records as researchers and teachers. My 
critics instead advocated granting a disproportionate role to 
subjective comments on the candidates' personalities and to gender 
considerations, despite the college affirmative action officer's having 
cautioned that the department's existing gender diversity would make 
such an approach violative of federal law.
    Third, the significance of my scholarship and teaching was 
downgraded because of the kind of history that I teach. Scholars 
perceived as politically conservative, or even those who taught fields 
perceived as conservative--such as political, diplomatic, or 
constitutional history--were to face a huge disadvantage in personnel 
decisions at Brooklyn College.
    In some ways, my case represented an anomaly in the academic world. 
Those who want to fire someone because of his beliefs or academic 
specialty rarely put their opinions in writing, as did the ``Shadow 
File'' professors. Because of my credentials, I attracted support from 
dozens of national political and diplomatic historians of varying 
ideological persuasions. I benefited from all but perfect legal 
representation. Finally, CUNY, rather than Brooklyn, possessed the 
final say on my tenure. I can only wonder what happens to job 
applicants or untenured faculty from my fields who are rejected for 
reasons similar to those offered by Brooklyn, but who lack the 
advantages that I possessed.
    These events attracted unusually widespread media attention because 
they illustrated troubling patterns within the academy as a whole, such 
as how considerations relating to departmental or campus politics can 
arbitrarily override merit in the tenure process; or how some 
professors impose ideological litmus tests as preconditions for hiring 
and promotion.
    Within the historical community, some also saw Brooklyn's action as 
part of a broader assault on the fields of political and diplomatic 
history. Jonathan Zasloff, a professor at UCLA Law School who also 
holds a Ph.D. in diplomatic history from Harvard, noted that the 
controversy highlighted ``the decline of the history of American 
foreign policy as a subject of academic study-not because it isn't 
still critically important, but rather because it is simplistically 
dismissed as studying dead white men. The `new social history' that 
focuses on studying the working class, unemployed people, minorities, 
women and gays is critically important as well--but the academy, in its 
quest for novelty, has really thrown the baby out with the bathwater.'' 
Ironically, this dismissal has come at a time when the study of 
diplomatic history has never been more intellectually diverse, ranging 
from the multitude of recent studies that have considered factors like 
race and gender in the history of American foreign relations to the 
exemplary Cold War International History Project, a truly multicultural 
intellectual enterprise if ever there was one.
    The contents of the ``Shadow File'' confirmed Zasloff's 
observations. One of the file's contributors, a specialist in women's 
history, denigrated my teaching and scholarship on the grounds that I 
taught courses dealing with ``political history, focused on figures in 
power.'' Such an ``old-fashioned approach to our field,'' this 
professor mused, attracted only ``a certain type of student, almost 
always a young white male,'' whose interest in such ``narrow'' topics 
implied limited intellectual abilities. The former department chairman, 
who has since been reassigned, termed this document the ``reasoned 
consideration'' of a senior colleague.
    Since the early 1960s, the academy has witnessed an explosion of 
interest in race, class, and gender in U.S. history. These developments 
have produced more nuanced views of American history as a whole. They 
have, however, come with a cost. Marc Trachtenberg, a history professor 
at the University of Pennsylvania, has lamented how many adherents of 
this ``new social history'' have seemed ``interested in pushing fields 
like diplomatic history--and to a certain extent even political history 
as a whole, not to mention a whole series of other fields--to the 
margins of the profession.'' As a result, vast areas of U.S. history 
addressing our core values--democracy, foreign policy, the law--have 
been deemed unworthy of instruction.
    That my colleague was willing to commit to paper her comment that a 
professor teaching about ``figures in power'' constituted grounds for 
condemnation testifies to just how certain she and others have become 
of support for these views among the professorate. In the academy as 
reflected by Brooklyn College, someone like me, whose first two books 
studied left-wing congressional dissenters and who wore a Hillary 
Clinton button during the 2000 Senate campaign, was deemed holding 
views too ``conservative'' to be tolerated. We now have a culture to 
which many academics conform without giving much thought to the 
absurdity of some of the culture's central tenets. Indeed, of the 
current Members of Congress, perhaps only Maxine Waters would not fall 
under the definition of ``conservative'' as offered by academics who 
see the study of ``figures in power'' as somehow catering to sexism or 
racism.
    These patterns certainly are not confined to Brooklyn College. 
Again to quote Trachtenberg, advocates of the new social history 
``talked a lot about `diversity,' but in practice they certainly did 
not embrace a live-and-let-live philosophy.'' An outside observer might 
have expected that departments would add faculty positions in social 
history fields as a complement to pre-existing positions in political, 
diplomatic, or constitutional history. Instead, these newer topics too 
frequently have taken the place of more ``traditional'' approaches, as 
a representative sample of history departments--from 30 large state 
universities around the country--suggests. If anything, such a sample 
would seem likely to reveal a disproportionately high percentage of 
political and diplomatic historians, both because of the size of these 
departments and because these schools get much of their funding from 
the government, and thus would seem less likely to avoid entirely 
topics that most in the country consider crucial for students to learn. 
Instead, a majority of full-time U.S. history professors in only three 
of the sampled departments (Ohio State, Virginia, and Alabama) have 
research interests that deal with politics, foreign policy, the law, or 
the military in any way. At 20 of these schools, less than a quarter of 
the Americanists address such topics in any aspect of their scholarly 
work. The University of Michigan has 25 full-time department members 
teaching U.S. history: only one publishes on political history, as 
opposed to 11 professors examining race in America and seven 
specialists in U.S. women's history. Of the 11 Americanists in the 
University of Washington's history department, only one studies 
politics, the law, or foreign policy--and he specializes in American 
socialism and communism.
    The situation can be even more depressing at lower-profile public 
institutions, since some administrations tolerate students receiving 
U.S. political history only through a distorted lens. This is 
particularly true at schools promoting the agenda of the American 
Association of Colleges and Universities (AAC&U). Though a national 
organization to which dozens of colleges belong, the AAC&U's curricular 
program is dominated by a handful of members committed to using banal 
rhetoric of diversity and inclusion to defend curricula that present 
one-sided viewpoints on controversial political issues.
    Washington's Evergreen College, for example, features two courses 
on 20th century U.S. political history: ``Dissent, Injustice, and the 
Making of America,'' and ``Inherently Unequal.'' The latter course, 
which addresses U.S. history since 1950, holds as an indisputable 
premise that in the 1990s, ``racist opposition to African American 
progress and the resurgence of conservatism in all branches of 
government barricaded the road to desegregation.'' California State 
University-Monterey Bay, another AAC&U-oriented school, likewise 
presents students with only two, clearly biased, courses examining the 
history of American government institutions. Those wanting more U.S. 
political history are invited to take such classes as ``History 
According to the Movies,'' ``California at the Crossroads,'' and 
``Multicultural History in the New Media Classroom.''
    The historical profession needs balance, not intolerance. No one 
denies that students should have the opportunity to sample such 
offerings from the new social history as ``History According to the 
Movies.'' But courses in American political, diplomatic, and legal 
history are at least as important. Groups such as The Historical 
Society, which has brought together historians of all viewpoints to 
champion a return to a discipline based on reasoned appeals to evidence 
rather than promotion of an ideological agenda, have resisted the 
exclusion of whole fields from college history departments. In 
addition, the Miller Center for Public Affairs, housed at the 
University of Virginia, has launched an ambitious project to promote 
and fund innovative new scholarship in the history of American 
political development. Still, historians seem unlikely to create an 
intellectually diverse profession on their own. As recently noted by 
University of Pennsylvania professor Erin O'Connor, publisher of the 
weblog Critical Mass, since ``scholarship--centered on questions of 
identity, oppression, and power relations--is in turn a sign of a 
particular political commitment,'' faculty diversity will ``only be 
pursued insofar as it ensures and perpetuates ideological uniformity.''
    With faculty unwilling or unable to create an intellectually 
diverse campus, administrators and trustees must step forward, as my 
case suggested. Chancellor Goldstein used my case to affirm his 
previously stated commitment to improving standards and promoting 
intellectual diversity. Several trustees likewise used the matter to 
articulate the basic principles under which CUNY personnel policy would 
operate. In the contemporary climate, responsible administrators and 
trustees should require careful accountings of hiring, tenure, and 
promotion decisions coming from academic departments. These same 
administrators and trustees should be ready and willing to act when 
such decisions prove to have been made to satisfy personal ideological 
wish lists rather than educational and scholarly needs.
    Simply paying lip service to the principle of teaching students 
about American democracy will not suffice. An unfortunate example of 
this trend comes in a federally funded grant, distributed to 12 
colleges through the AAC&U, with an apparently non-controversial name 
(``The Arts of Democracy'') and mission (promoting ``a deeper 
understanding of, debate about, and practice of democracy''). 
Brooklyn's ``Arts of Democracy'' program promises to produce students 
who will understand the heritage of American civic ideals; be able to 
resolve moral dilemmas posed by U.S. foreign policy; and comprehend the 
fundamental premises of U.S. democracy.
    Despite these promising claims, the program contains not even one 
political science, history, economics, or philosophy course exploring 
American government or international relations. Instead, ``Arts of 
Democracy'' students learn that democracy entails support for a 
multicultural political agenda and what the college terms a ``community 
of diversity,'' by taking courses such as ``Literature and Cultural 
Diversity,'' ``Introduction to Global Cinema,'' and ``Peoples of the 
United States.''
    By underwriting ``The Arts of Democracy,'' the federal government 
itself is not only undermining the teaching of political and diplomatic 
history, but providing for a program that views the entire modern 
liberal democratic project, from its inception in 17th century England 
and the 18th century European Enlightenment to the present, as a 
sustained effort to suppress and marginalize one group or another in 
the interests of maintaining power, privilege, and profits. Even taking 
the stated goals of the ``Arts of Democracy'' at face value, one 
wonders how American students, as citizens of a country that for nearly 
a century has possessed unprecedented global power, could be expected 
to resolve the ethical dilemmas associated with that power if the 
students lack a well-rounded understanding of its past uses as well as 
abuses.
    In the end, restoring intellectual diversity on campus requires 
support from the outside--from alumni, trustees, and government. As a 
historian of the U.S. Congress, I know as well as anyone how the 
lessons of the McCarthy era suggest the dangers of Washington 
excessively involving itself in college instruction. But Congress 
possesses an array of powers through which it could encourage 
intellectual freedom on today's campuses, without the risk of heavy-
handed intervention.
    Hearings such as this one can help frame the issue for public 
discussion and force colleges to adopt transparent standards in 
personnel and curricular matters. Doing so would indirectly stimulate 
intellectual diversity. No institution can publicly admit that its 
promotion and tenure process is weighted against professors who teach 
about American politics or foreign policy, or that it wants to 
indoctrinate students through politically one-sided course offerings.
    In addition, specifically targeted federal grants to promote the 
study and teaching of American politics, foreign policy, and the law 
are very much needed. In this regard, I especially commend Senator 
Gregg for his sponsorship of S. 1515, the Higher Education for Freedom 
Act, which would create a targeted grant program aimed at reviving 
postsecondary teaching and research about our political institutions 
and the philosophical and cultural background out of which they 
emerged. This legislation will complement the Teaching American History 
Grant Program authored by Senator Byrd, which focused on the 
elementary, middle, and high school levels of American education. The 
emphasis on grants for new program creation is especially well-
conceived, since the development of new programs is probably the best 
way of ensuring that there will be faculty lines in existence, and 
graduate training available, for future historians and other scholars 
who wish to make careers studying subjects related to political and 
constitutional institutions.
    Four decades ago, William Fulbright theorized that the Senate's 
``primary obligation'' to political life came in contributing ``to the 
establishment of a national consensus'' through educating the public. 
This function remains vitally important for the Senate. I commend the 
Committee's efforts to educate the public on the need for campus 
intellectual diversity, and I thank you for your consideration.

                  Prepared Statement of Greg Lukianoff

    Mr. Chairman and members of the Committee: My name is Greg 
Lukianoff, and I am the director of legal and public advocacy for the 
Foundation for Individual Rights in Education, commonly known as FIRE. 
For four years now, FIRE has been fighting for free speech and academic 
freedom on college and university campuses across the nation, following 
through on the analysis and recommendations contained in a book written 
by FIRE's co-founders, Alan Charles Kors and Harvey A. Silverglate--The 
Shadow University: The Betrayal of Liberty on America's Campuses. Prior 
to working for FIRE, I was unaware of how common serious violations of 
students' basic free speech rights are on today's campuses. Since 
working at FIRE, however, I have witnessed hundreds of cases in which 
private and public universities have demonstrated a distressing 
disregard for free speech. FIRE has come to the defense of anti-war 
protestors, pro-war demonstrators, satirists, political activists from 
across the political spectrum, student newspapers, and students and 
faculty who often have done little more than criticize an 
administration or its policies, or who have tried constructively and 
peaceably to address pressing social or political concerns.
    While violations of basic expressive rights are always troubling, 
it is especially disturbing when they take place at our colleges and 
universities--institutions that depend on an open exchange of ideas in 
order to fulfill their most basic mission. Colleges and universities 
should be the institutions where individuals enjoy the greatest 
possible free speech rights. Sadly, students and faculty too often have 
to fight for the right to express opinions that citizens outside of 
academia would simply take for granted as enjoying full legal 
protection.
    Despite the protections of the First Amendment at public 
universities and the powerful statements of commitment to free speech 
and academic freedom at most private liberal arts colleges and 
universities, many campuses still promulgate speech codes. You may 
wonder what we mean by ``speech codes.'' FIRE defines a speech code as 
any campus regulation that punishes, forbids, heavily regulates, or 
restricts a substantial amount of expression that would be protected in 
the larger society. Our definition is straightforward and applies to 
all university policies whether they call themselves ``speech codes'' 
or not. In contrast to the way that such codes were put into effect 
during their heyday in the late 80s and early 90s, colleges today are 
loath to label their policies ``speech codes'' even when they restrict 
or forbid clearly protected speech. This may be a result of a series of 
court cases in which university speech codes were struck down as 
unconstitutional, or perhaps it is a reaction to public relations 
disasters that were generated by early attempts to regulate student 
speech.
    But make no mistake, as Harvey Silverglate and I explain in our 
attached article, speech codes are alive and well on college campuses.
    The current generation of speech codes come in many shapes and 
sizes, including but not limited to e-mail policies that ban 
``derogatory comments,'' highly restrictive ``free speech zone'' 
policies, ``diversity statements'' with provisions that outlaw 
``intolerant expression,'' and so-called ``harassment policies'' that 
extend to speech that may ``insult'' or ``demean.'' While they may not 
call themselves ``speech codes'' anymore, a speech code by any other 
name still suppresses speech.
    FIRE has been combating speech codes as a part of its general 
operations for the last four years. We have come to the defense of 
thousands of individuals who have been the victims of rules and 
regulations that should have no place on our campuses. Drawing from 
that experience, we decided to undertake a colossal program that seeks 
to catalog the restrictive speech policies on every college and 
university campus across the country. The preliminary results of this 
massive research undertaking can be found on a public website, 
speechcodes.org. The website--which, according to our research, is 
current through this past summer--now features nearly 200 hundred 
public and private colleges and universities. FIRE has rated each of 
the non-sectarian universities using a ``lighting scheme'': green 
lights indicate that we found no policy that seriously imperils speech; 
yellow lights indicate that a university has some policies that could 
ban or excessively regulate protected speech; and red lights are 
awarded to universities that have policies that ban a substantial 
amount of what would be clearly protected speech in the larger society. 
Of 176 rated universities only 20 have earned green lights, while 80 
earned yellows. A distressing 76--forty-three percent of the 
institutions rated--earned red lights.
    Some of these red light polices are truly bizarre. For instance, 
Hampshire College in Massachusetts bans ``psychological intimidation, 
and harassment of any person or pet.'' Others are almost quaint, like 
Kansas State University, which bans the use of ``profane or vulgar 
language'' when it is used in a ``disruptive manner.'' It has long been 
settled in constitutional law that free speech is not limited only to 
the pleasant or the pious.
    Some codes are remarkably broad and vague, like that of Bard 
College in New York, which states, ``It is impermissible to engage in 
conduct that deliberately causes embarrassment, discomfort, or injury 
to other individuals or to the community as a whole.'' By banning 
speech that ``discomforts,'' Bard takes a position that has been 
adopted by many colleges and universities: valuing and promoting peace 
and quiet at the expense of robust debate and intellectual engagement. 
To be sure, politeness is a commendable value, but it simply does not 
compare in importance to unfettered debate and discussion in a 
pluralistic democracy. Furthermore, it is not the place of college 
administrators to force students to speak in any particular fashion. 
Civility should, perhaps, be inculcated when a student is young, by his 
or her elementary school teachers and by parents. In college, it should 
be learned by example. Furthermore, conditioning speech on civility 
virtually denies the existence of justified moral outrage.
    Other codes define the ``protected class'' of the speech code so 
broadly as to ban even the most basic forms of free speech. The 
University of California-Santa Cruz, for example, warns against speech 
that shows ``disrespect'' or ``maligns'' on the basis of, among other 
categories, ``creed,'' ``physical ability,'' ``political views,'' 
``religion,'' and ``socio-economic status or other differences.'' One 
can only imagine what dreary places colleges would be if students 
weren't even allowed to express passionate political criticisms.
    Still others dangerously trivialize society's most serious crimes 
in an effort to get at ``offensive speech.'' Ohio University's 
``Statement on Sexual Assault,'' for example, declares that ``Sexual 
assault occurs along a continuum of intrusion and violation ranging 
from unwanted sexual comments to forced sexual intercourse.'' One 
should be very concerned about any university that cannot make a 
principled distinction between loutish comments and rape.
    Most colleges, however, rely on this strategy: they redefine 
existing serious offenses to include protected expression. Hood College 
in Maryland, for example, defines ``harassment'' as ``any intentionally 
disrespectful behavior toward others.'' While ``disrespectful 
behavior'' may be rude, it certainly does not rise to the level of the 
crime of harassment. No one denies that a college can and should ban 
true harassment, but hiding a speech code inside of a ``racial-
harassment code,'' for example, does not thereby magically shield a 
college or university from the obligations of free speech and academic 
freedom.
    A particularly pernicious brand of speech code goes beyond 
punishing what one says and extends to what one feels, thinks, or 
believes. Transylvania University in Kentucky bans ``oral, and written 
actions that are intellectually . . . inappropriate'' if they touch 
upon a broad list of protected classes. Florida State University's 
``General Statement of Philosophy on Student Conduct and Discipline'' 
states, ``Since behavior which is not in keeping with standards 
acceptable to the University community is often symptomatic of 
attitudes, misconceptions, and emotional crises, the treatment of these 
attitudes, misconceptions, and emotional crises through re-education 
and rehabilitative activities is an essential element of the 
disciplinary process.'' All citizens should be very concerned when 
state universities, which often offer only a bare minimum of due 
process, take upon themselves the ``re-education'' of adult students 
and empower themselves to compel correct ``attitudes.'' That is not 
worthy of a free nation.
    Another kind of speech code is the so-called ``speech zone'' 
policy, which limits protests, debates, and even pamphleteering to tiny 
corners of campus. FIRE has identified or fought these polices at over 
two dozen public universities. Until this past summer, Western Illinois 
University provided students with only one ``Free Speech Area.'' This 
area was only available during business hours and had to be reserved 
five days in advance. Even within the ``Free Speech Area,'' additional 
speech restrictions applied. Until FIRE intervened, Texas Tech 
University--a school with 28,000 students--provided only one 20-foot-
wide gazebo to be used as a ``Free Speech Area.'' Protests, 
demonstrations, pamphleteering, speeches, and even the distribution of 
newspapers had to receive prior, official approval if they were to 
occur outside of the ``free speech'' gazebo and requests had to ``be 
submitted at least six university working days before the intended 
use.''
    Texas Tech has since expanded the number of speech zones on campus, 
but FIRE continues to fight, along with a broad coalition that includes 
the Alliance Defense Fund in the courts and a new student group called 
Students for Free Speech on the ground. We are determined to make Texas 
Tech grant its students the full freedoms that students at an 
institution of higher learning deserve--not just the bare legal 
minimum.
    Lest anyone think that these speech codes might not be such a 
threat if they are applied judiciously and fairly, they need only 
consult our website at www.thefire.org. In the past year alone we have 
seen dozens of examples of blatant violations of the free speech rights 
of students and faculty members. At Harvard Business School, an editor 
was threatened with discipline for publishing a mildly critical 
political cartoon. We continue to work on behalf of a professor who was 
fired for ``faithlessness and disloyalty'' for daring to criticize the 
policies of the president of Shaw University in North Carolina. At 
California Polytechnic State University we came to the assistance of a 
student who had been subjected to a seven-hour hearing and found guilty 
of disruption for posting an ``offensive'' flier advertising an 
upcoming speech by a black conservative. The flier only contained 
information about the speech, the name of the speaker's book, and a 
photo of the speaker. FIRE is currently helping a fifty-five-year-old 
grandmother who is a student at SUNY Suffolk and has been found guilty 
of ``harassment'' and ``intimidation'' for using a single profanity in 
an e-mail accidentally sent to a professor. At Roger Williams 
University in Rhode Island, just within the past few weeks, 
administrators froze an entire year's worth of printing funds for a 
student newspaper, The Hawk's Right Eye, when it published number of 
controversial articles. At this very moment, FIRE is involved in half a 
dozen other cases involving serious infringements upon the free speech 
rights of students and faculty, and these cases keep on coming.
    Free speech is not, nor should it ever be, a partisan issue. Part 
of the brilliance of our form of government is that it binds the rights 
of each individual to the rights of all citizens. As a society, we only 
enjoy the rights that the least of us receive. Therefore, all of our 
rights depend on the protection of even the most controversial or 
``politically incorrect'' of us--and, rest assured, the definition of 
``political correctness'' changes dramatically over time. However, 
since colleges and universities recognize that if they were really to 
ban all speech that offends anyone all colleges and universities would 
be reduced to silence, they often apply their speech restrictions with 
an unconcealed double standard.
    While it has been FIRE's experience that students and professors 
with orthodox religious views, conservative advocates, and bold 
satirists are more likely than others to be censored under the current 
campus climate, we all have a common interest in the free speech of our 
nation's students. While it may be the more conservative students who 
today feel the brunt of speech codes on campuses, it was only a 
generation or two ago when the shoe was on the other foot and liberal 
students bore that burden. The problem is censorship, pure and simple. 
The group that bears the brunt of censorship at any given moment in 
history is of academic interest, but the existence of censorship that 
can silence you one year and your opponent the next is the ongoing 
problem. Not only are all students affected by these overbroad 
policies--and students of every political stripe are punished if they 
cross certain, often arbitrary, lines--but everyone suffers when any 
side of an important debate is stifled, silenced, or otherwise quashed.
    And make no mistake about it, the war for free speech is often not 
ideological at all. Campus censorship is quite often a simple, naked 
exercise of power. For example, at Hampton University in Virginia, the 
entire press run of last week's Hampton Script was confiscated by 
administrators who were angry about the paper's refusal to run a letter 
from the university's acting president on the front page. College and 
university administrators too often view criticisms of their policies 
as tantamount to sedition. Furthermore, many administrators censor 
viewpoints not to achieve an ideological purpose or ideological 
homogeneity, but rather to avoid having offended students conduct noisy 
demonstrations that embarrass the administration. But this kind of 
``trouble''--loud, vociferous, and often unruly dissent--is 
indispensable to higher education; it is not an embarrassment or an 
inconvenience that needs to be stamped out. American freedom may 
occasionally be more troublesome than the order that exists in a police 
state, but it is our most precious birthright.
    As noted earlier, if there is one constant in the history of free 
speech, it is that the censored of one generation often become the 
censors of the next. This vicious cycle of censorship teaches citizens 
to take advantage of any opportunity that they have to silence those on 
the other side. Students educated in this environment can hardly be 
blamed if they come to view speech as little more than a tool that they 
must do their best to deny their enemies, rather than as a sacred 
value. That is a terrible threat to American liberty.
    FIRE hopes that we can put an end to this vicious cycle of 
censorship with this generation. With the help of a coalition of 
individuals and organizations from across the political spectrum, we 
can teach the current generation that a free society's cure to ``bad'' 
speech is more speech.
    It is important to mention, however, that there are grave dangers 
that you must avoid in congressional involvement to return free speech 
to campus or through any other attempt to legislate an expansion of 
intellectual diversity. Well-intentioned legislation designed to 
protect the interests of different groups of students is all too often 
used as an excuse for censorship. For example, the sexual harassment 
regulations issued by the Office for Civil Rights of the Department of 
Education (OCR) have been abused and misinterpreted so commonly to 
justify regulations that punished merely ``offensive'' speech that the 
OCR decided it needed issue a letter of clarification this past summer. 
This letter of clarification stated what one might think would be a 
self-evident point: no federal regulation may be used as a 
justification for denying students or faculty the free speech rights 
that are protected under the First Amendment. The OCR incident is only 
the most recent example of how regulations that were passed with the 
best of intentions can be turned into weapons of censorship.
    History shows that efforts to control either speech or the content 
of speech almost always result in abuse, leading to the suppression of 
unpopular ideas or opinions. Any bill that would ban ``indoctrination'' 
on campus, for example, or that would promise ``unbiased teaching,'' 
could too easily result in a nightmare of abuse and suppression as 
different sides fight to label the other sides' arguments as 
``indoctrination'' and their own as simply ``truth.'' The best way for 
Congress to ensure intellectual diversity on campus is simply to work 
to remove the often unlawful restrictions on speech that currently 
exist. When students and faculty do not have to fear punishment for 
expressing their deeply held beliefs--no matter how outrageous or 
unpopular--greater intellectual diversity will result.
    Yet any such legislation should be crafted with great care so as to 
avoid undue governmental control of or influence over institutions of 
higher learning, particularly at private institutions. Legislation 
should remind public universities that they have not only a moral, but 
also a legal duty to protect rather than infringe upon free speech, and 
that speech restrictions that would be unconstitutional in the outside 
world are likewise unconstitutional on public university campuses, 
regardless of whether or not administrators believe that such 
restrictions would advance other values. Legislation affecting private 
colleges should avoid imposing the same obligations that are imposed on 
public campuses, since true diversity requires that private 
institutions be allowed to deviate and vary from the norm. What would 
be most helpful would be legislation that simply required private 
institutions to fulfill whatever promises they make in their catalogues 
and literature. Thus, if a private college promises intellectual 
diversity and academic freedom, it should be required to deliver it. 
FIRE is in favor of true disclosure and of private institutions living 
up to their promises and assurances, rather than of governmental 
efforts to dictate the values to which such institutions should be 
dedicated. If ABC College says that it is a liberal arts institution 
devoted to academic freedom, then it should deliver this or else be 
held accountable for breaking its contractual assurances to its 
students. Fraudulent inducement is not a part of academic freedom.
    While any remedial action should be considered carefully and 
thoroughly, the cost of leaving things as they are is too high. One 
chilling example of how poorly free speech is understood and how little 
it is respected in higher education today is the phenomenon of 
newspaper thefts. For over a decade in at least five dozen documented 
instances, students have stolen and destroyed tens of thousands of 
copies of student-run newspapers on colleges and universities across 
the country in an effort to silence viewpoints with which they 
disagree. In some cases these newspapers were thrown out, and--in at 
least a half dozen cases--they were burned. I hope I do not need to 
remind you of the fate of societies of the previous century when they 
began burning books. In fact, this form of mob censorship has become so 
commonplace that this month the Berkeley City Council passed an 
ordinance making newspaper theft illegal. This was in part a response 
to an incident involving Berkeley's current mayor, Tom Bates, who stole 
1,000 copies of a student newspaper after it endorsed his opponent in 
the mayoral race. With those in power teaching the current generation 
these kinds of lessons about free speech, how can we expect them to 
defend their own basic rights when they are threatened? It would truly 
be a terrible thing to have a whole generation of students so 
unfamiliar with their basic liberties that they would not even know if 
they lost them.
    [``Speech Codes: Alive and Well at Colleges . . . By Harvey A. 
Silverglate and Greg Lukianoff may be found in the issue dated August 
1, 2003 of The Chronicle of Higher Education.]

                   Prepared Statement of Anthony Dick

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to be here today to discuss with you the important issue of 
intellectual diversity in higher education.
    When I came to college three years ago, I expected to find an 
environment firmly devoted to free inquiry and the open competition of 
ideas. In order for such an atmosphere to be sustained, however, two 
core principles of liberal education must hold strong: First, 
universities must respect the freedom of every individual to express 
any idea or opinion without fear of punishment. Second, universities 
must allow all ideas to compete on an equal footing, without using 
institutional power to privilege certain viewpoints above others. At 
UVA, both of these principles have eroded as the University has strayed 
from strict liberal arts education and moved toward a more politicized 
function.
    Judging from my experience over the last three years, many in the 
UVA community view a university education not as an end in itself, but 
merely as a means to achieving some higher political goal. This 
``higher goal'' manifests itself in various causes such as the 
rectifying of historical injustices, the eradication of social 
inequalities, or the alleviation of racial or socioeconomic oppression. 
It is a common view among many that the equal competition of ideas and 
the equal right to free expression together serve only to perpetuate 
various prejudices and injustices that linger from our less-than-
perfect past. From this premise, they argue that certain viewpoints 
should be either curtailed or privileged in a deliberate manner, with a 
progressive aim in mind.
    These advocates of politicized education have succeeded to some 
degree in influencing the state of affairs at UVA. As they have 
succeeded, liberal arts education has suffered. On the one hand, they 
have propagated policies that stifle the expression of certain 
viewpoints. On the other hand, they have worked to establish mandates 
and requirements privileging certain favored opinions above all others. 
With the selective application of administrative power both to restrict 
some ideas and favor others, the marketplace of ideas has lost balance. 
In many controversial fields of discussion at UVA, the competition of 
opposing views has become slanted in one particular direction, and the 
situation threatens to become much worse.
    Earlier this semester, a group of concerned students and I founded 
the Individual Rights Coalition (IRC) at UVA. We also launched a 
website, www.freeuva.com. Our motivation stems from our belief in the 
enduring value of liberal arts education. Following in the tradition of 
Thomas Jefferson, the father of UVA, we believe that our university 
should treat education as an apolitical end in itself, and that social 
progress is best assured when the realm of ideas is kept as free as 
possible from interference at the hands of authority. Further, we hold 
that the best way to ward off such authoritarian interference is to 
foster an equal respect for the individual rights of all people in all 
circumstances. We are a truly non-partisan group, with members on all 
sides of the traditional left-right political divide. I was raised in a 
liberal family, I am a registered Democrat in the state of Virginia, 
and I maintain liberal views on many political issues. Although each of 
us in the IRC has a different vision of the ideal society, none of us 
is willing to sacrifice liberal arts education in an effort to see our 
vision realized.
    In UVA's ``Discriminatory Harassment Policy'' printed in this 
year's Undergraduate Record, students are warned against engaging in 
any type of expression that ``unreasonably interferes with [a] person's 
work or academic performance or participation in University activities, 
or creates a working or learning environment that a reasonable person 
would find threatening or intimidating.'' The policy then proceeds to 
list examples of expressions for which students should be ``reported 
for review.'' These examples include: ``Directing racial or ethnic 
slurs at someone,'' ``Telling persons they are too old to understand 
new technology,'' and ``ridiculing a person's religious beliefs.''
    At best, these examples imply a threat of punishment for engaging 
in constitutionally protected expression. But even worse, they seem to 
lend definition to the Administration's conception of ``unreasonable 
interference.'' If these examples could be construed to unreasonably 
interfere with another person's educational pursuits, then a wide range 
of other offensive speech becomes threatened. As a result, some 
students I know at UVA are unsure about exactly what they can write or 
say without having to fear punishment. Would a religious satire in the 
tradition of Mark Twain count as ``ridiculing a person's religious 
beliefs?'' Do ``racial or ethnic slurs'' include passionate arguments 
that offend anyone of another race? The simple fact that these 
questions need to be asked illustrates the chilling effect of a speech 
code that is both vague and potentially overbroad.
    Similar problems arise from UVA's Sexual Harassment Policy, which 
warns against sex-related expressions that create an ``offensive 
working or learning environment.'' In its discussion of sexual 
harassment, UVA's Office of Equal Opportunity Programs lists some 
``examples of problematic behavior.'' These include ``jokes of a sexual 
nature,'' ``suggestive comments about physical attributes or sexual 
experience,'' ``sexually suggestive emails,'' and ``sexual comments 
that bear no legitimate relationship to the subject matter of a 
course.''
    As a columnist with UVA's student newspaper, I often have wondered 
how the University's Discriminatory Harassment Policy and Sexual 
Harassment Policy have been applied in the past. Last year, I wrote to 
University officials on three separate occasions to try to obtain 
records of past cases that have been prosecuted under the Policies. At 
first, I received a reply that the documents I sought were considered 
``education records'' under the Family Educational Rights and Privacy 
Act. Therefore, ``even if they were found, [they] would ultimately have 
to be withheld from disclosure because of federal law.'' Eventually, 
the University Judiciary Committee (UJC) offered to search their 
records and release the number of cases prosecuted under the Policies, 
as long as I would pay ten dollars per hour for their research. Because 
this would have amounted to hundreds of dollars that I did not have, 
and because this paltry information would have told me nothing about 
the type of speech to which the Policies were applied, I did not accept 
the offer.
    UVA's vague Sexual and Discriminatory Harassment Policies, along 
with the University's unwillingness to release details about how these 
policies have been applied, create an environment where the protection 
of free expression is uncertain. According to the Policies, and 
especially in light of the provided examples, it seems that some speech 
can be punished simply for being ``offensive.'' The result of this 
uncertainty is largely intangible, as some UVA students simply choose 
to silence themselves rather than risk punishment for their potentially 
``offensive'' views. Not surprisingly, the types of views that are 
silenced in this way are usually those that are widely and vocally 
disfavored by both the majority of the UVA community and by the UVA 
Administration. At Thomas Jefferson's University, of all places, this 
unnatural conformity of opinion bespeaks a sad state of affairs.
    The politicization of UVA is most evident in the University's 
recent efforts to establish a mandatory ``diversity training program.'' 
This program centers on topics such as race, ethnicity, gender, 
identity, and other controversial social issues. One UVA administrator 
has described its purpose to me as ``instilling community values'' in 
students. The impetus for this ``training'' draws strength from the 
idea that incoming UVA students are burdened with certain prejudices 
and misunderstandings regarding social issues, and that they must be 
``trained'' to abandon these prejudices. This function of the 
University falls far outside of its traditional role of providing a 
liberal arts education, and extends into the realm of bringing about 
directed social change.
    At the beginning of the summer in 2003, the Charlottesville Daily 
Progress and The Cavalier Daily (the UVA student newspaper) reported 
that the UVA Administration had mandated an online ``diversity 
training'' program to be imposed upon undergraduates at the University. 
In a June 12 news story, one administrator described the mandatory 
program: ``The purpose of the online diversity training system is to 
provide entering students with the opportunity to gain insights into 
the way their own cultural, ethnic or racial expectations and 
experiences influence their interaction with other students, faculty 
and staff from different backgrounds with whom they come into contact 
as members of the University community.''
    In the same news story, a member of the faculty steering committee 
for the mandatory program stated that the training was created to get 
students ``to confront their own prejudices and areas of 
misunderstanding'' with regard to diversity-related topics. From my 
personal conversations with administrators and media reports, the 
planned method of enforcing this requirement is to block students from 
registering for classes until they complete the training--making it 
mandatory in the strictest sense of the word. Thus, with the backing of 
administrative power to force people to attend them, whatever views are 
included in this particular mandatory training program will necessarily 
be privileged over competing views.
    Since the co-founding of the IRC at UVA, administrators fortunately 
have distanced themselves somewhat from the idea of mandatory diversity 
training. This is due largely to the strong student support that the 
IRC has garnered, as well as the IRC's articulation of the 
inadvisability of using administrative power to privilege certain 
controversial views over others. Issues pertaining to diversity are far 
too fluid and complex for the Administration to act as if there is an 
objective truth about them that students can be ``trained'' to 
understand. However, top administrators still maintain that such 
training is under serious consideration at UVA, and plans for the 
implementation of this program are still under way. Most importantly, 
the spirit of support for such a program remains strong among many in 
the UVA community who want to abandon the University's strict focus on 
liberal arts education in favor of a more extensive political function.
    Much of the IRC's opposition to mandatory diversity training at UVA 
comes from our knowledge of how similar diversity training programs 
have been implemented at other colleges and universities. In an 
invasive exercise at Swarthmore College in 1998, students were lined up 
in their dormitories according to their skin color, from lightest to 
darkest, and asked to speak about their feelings regarding their place 
in line. In Skin Deep, a nationally distributed diversity training 
film, students are summarily informed, ``intolerance has once again 
become a way of life'' on America's campuses. The movie's ``study 
guide'' goes on to assert dogmatically the necessary and proper role of 
racial preferences in higher education, the undeniable problem of white 
privilege, and the need for students to fight against the 
``internalized oppression'' that lurks within each of them.
    In another widely used training film titled Blue Eyed, a diversity 
trainer by the name of Jane Elliott spends a day abusing and ridiculing 
a group of blue-eyed men and women in order to teach viewers a lesson 
about the nature of oppression and the plight of racial minorities in 
American society. She forces them to sit on the floor, yells at them 
incessantly, and reminds them, ``You have no power, absolutely no power 
. . . quit trying.'' After viciously pushing one sullen blue-eyed 
individual to the brink of tears, Elliott announces, ``what I just did 
to him today Newt Gingrich is doing to you every day . . . and you are 
submitting to that, submitting to oppression.'' To get her message 
across more clearly, she proclaims, ``I'm only doing this for one day 
to little white children. Society does this to children of color every 
day.'' As a prescription for this supposed problem, the written guide 
accompanying the movie baldly states, ``It is not enough for white 
people to stop abusing people of color. All U.S. people need a personal 
vision for ending racism and other oppressive ideologies within 
themselves.'' The point of the film is clear: America is an unbearably 
racist society, dominated by sinister forces of oppression that can 
only be overcome by sweeping institutional changes. Instead of being 
treated as viable topics for free debate, claims like these are now the 
regular subject of ``training'' sessions at universities across the 
country.
    At UVA, administrators themselves typically do not take the 
initiative to conceive and implement illiberal policies and programs. 
Rather, they often implement such programs under significant pressure 
from vocal student groups who champion so-called progressive causes. 
UVA administrators by and large constitute an extremely risk-averse and 
reactive body. They are careful to avoid criticism at almost any 
expense, as they have their own careers to look after. Thus, on any 
given issue, they have proven themselves with great reliability to take 
whichever side seems least likely to generate negative publicity for 
them. When high-profile incidents occur relating to racial or ethnic 
insensitivity, administrators are harshly accused of inaction and 
failure to provide a welcoming community for minority students. In 
order to deflect such criticism, they readily accede to radical demands 
from student groups offering drastic solutions to the University's 
alleged problems. As a result, administrators can be trusted to defend 
individual rights and academic integrity only to the extent that they 
perceive such defense will grant them favor in the eyes of the 
University community and of society at large.
    Further, from my experience, the overwhelming majority of 
administrators at UVA could be described as either left or far left on 
the political spectrum. Regardless of the reason for this, it 
translates simply into a greater danger of administrative power being 
used for partisan ends. This is not due to some innate ambition for 
power inherent in their political views--the same problem would arise 
under a solidly conservative administration. The problem is simply that 
when administrators all think in roughly the same way about certain 
political issues, they seem less likely to recognize certain programs 
as wrongly viewpoint--discriminatory, and more likely to view such 
efforts simply as instruments of social justice and positive change.
    Thus, two relevant features describe administrators at UVA: First, 
they are highly susceptible to pressure from groups who pose a 
legitimate threat of career-damaging criticism. And second, they are 
somewhat pre-disposed to sympathize with requests for administrative 
action on behalf of a particular political ideology.
    At UVA, ``diversity'' is the focus of an amazing amount of 
attention. All too often, though, it is discussed only in terms of the 
superficial characteristics of students and faculty. Differences in 
race, ethnicity, and gender are praised and sought after with great 
fervor, but significantly less attention is given to the intellectual 
diversity of the University community. This problem is exacerbated by 
the efforts of some who seek to shape the University into a vehicle for 
social change as opposed to an impartial guardian of the liberal arts. 
To these people, vibrant intellectual diversity is not so much a boon 
to the development of the mind as it is an obstacle to the achievement 
of political ends.
    If liberal arts education is to be preserved at UVA, freedom of 
speech and freedom of thought must be firmly secured. Students and 
faculty must feel confident in their ability to enjoy the full 
protection of their free speech rights as accorded by the First 
Amendment of the Constitution. The University Administration must also 
refrain from implementing any form of mandatory ``training'' that seeks 
to direct or control students' thinking on controversial social issues. 
For higher education to maintain its integrity, it must be treated not 
as a means to any political end, but as an invaluable end in and of 
itself.

                 Prepared Statement of Stanley Rothman

    I would like to thank the Chairman, Senator Gregg, the Ranking 
Minority Member Senator Kennedy, and the other members of the Senate 
Committee on Health, Education, Labor and Pensions for the opportunity 
to submit this statement.
    For purposes of identification, Stanley Rothman is Mary Huggins 
Gamble Professor of Government Emeritus at Smith College, and the 
Director of the Center for the Study of Social and Political Change. He 
received his Ph.D. in Government from Harvard University. He is the 
author, co-author or editor of 18 books including European Society and 
Politics (1970), Roots of Radicalism (1982) and The Media Elite (1986). 
His more recent books include American Elites (1996), Hollywood's 
America: Social and Political Themes in Motion Pictures (1996) and 
Environmental Cancer: A Political Disease? (1999). The Least Dangerous 
Branch? Social and Political Consequences of Judicial Activism was 
published published in the fall of 2002.
    Professor Rothman is also the author, or co-author, of over 140 
articles in professional and popular journals. Most of his work in 
recent years has dealt with various leadership groups in the United 
States and their role in social change. He has emphasized the role of 
individuals and groups who help define cultural values.

                     THE 1999 ACADEMIC STUDY SURVEY

    The 1999 Academic Study Survey provides data on ideological 
attitudes of American and Canadian faculty, students and 
Administrators. This American faculty random sample consists of 1520 
faculty members drawn from 140 universities and colleges in the US. The 
sample is stratified by institution type according to the Carnegie 
classifications of Doctoral, Comprehensive, and Liberal Arts schools. 
The survey was conducted for professors Seymour Martin Lipset, Neil 
Nevitte and Stanley Rothman in 1999 by Angus Reid (now Ipsos-Reid), a 
survey research firm. Response rate among faculty was 72 %. Professor 
Rothman is the director of the study

                         IDEOLOGY OF US FACULTY

    The 1999 Academic survey shows that ideological orientation of the 
US faculty is significantly tilted to the left. Half (50 %) of American 
professors identify with the Democrats, a third (33 %) call themselves 
independent, while a tenth (11 %) of the faculty respondents identify 
with the Republicans. Similarly, a much higher percentage of faculty 
members describe their own ideology as ``left'' than ``right'' (72 and 
15 %). The rest (14 %) regard themselves as holding middle of the road 
views. (Table 1).

   IDEOLOGICAL SELF-IDENTIFICATION OF FACULTY BY ACADEMIC FIELDS AND 
                              DEPARTMENTS

    The 1999 Academic Study Survey shows large differences in 
ideological orientation of the faculty by academic fields and 
disciplines. Faculty members in the humanities and the social sciences 
are the most supportive of left of center ideology and the Democratic 
Party. Eighty one percent of professors in the humanities and 75 % in 
the social sciences identify their views as strongly or moderately 
left, while only 9 % of respondents in these two fields hold strongly 
or moderately conservative views. Sixty two percent of professors in 
the humanities and 55 % in the social sciences identify with the 
Democratic Party compared to 6 and 7 % who identify with Republicans. 
Although the science and math faculties, and professors of business, 
and medicine are more likely to identify with the right than their 
counterparts in the humanities and the social sciences, supporters of 
right-wing ideological views and the Republican party in these fields 
are also in the minority. (Table 2).
    Similar differences exist among academic disciplines. For example, 
88 % of professors of English, 84 % of faculty in theater, drama and 
dance departments, 83 % of professors in fine arts, 81 % of political 
scientists, 80 % of philosophers, and 77 % of sociologists and 
historians express strongly or moderately left leanings. In contrast, 
only 2 % of political scientists, 3 % of professors of English, 5 % of 
philosophers, 8 % of professors in fine arts, 9 % of sociologists, 10 % 
of historians, and 17 % of faculty in theater, drama and dance 
departments embrace right of center views. The remainder of the 
respondents identify themselves as middle-of-the-road. (Table 3).
    Left self-identification is less prevalent among faculty in 
business schools (49 %), engineering (51 %), economics (54 %), 
chemistry (64 %), physics (66 %) and mathematics (69 %). Comparatively 
higher proportions of faculty, but still the minority, in these 
disciplines express moderately right or strongly conservative views. 
This applies to faculty in business schools and economics departments 
(39 %), chemistry (29 %), engineering (19 %), and to lesser extent, to 
faculty in mathematics (17 %), and physics (11 %). (Table 3).
    Similar pattern characterizes support for political parties. For 
example, three- fifths i.e., 59 % of sociologists, prefer the 
Democratic Party compared to 0 % who prefer the Republican Party. 
Analogous patterns of party preferences characterize political 
scientists (58 and 8 %), historians (70 and 4 %), philosophers (62 and 
11 %), psychologists (63 and 7 %), linguists (64 and 2 %), and faculty 
in the departments of English (69 and 2 %), education (55 and 7 %), 
music and musicology (56 and 6 %), theater, drama, and dance (63 and 2 
%), fine arts (55 and 4 %), and mass communications (52 and 3 %). This 
contrasts with support for Democratic and Republican parties by the 
faculty in business (26 and 26 %), agriculture (31 and 24 %), nursing 
(32 and 26 %), chemistry (41 and 25 %), engineering (34 and 13 %), and 
computer science (43 and 21 %). (Table 4).

           COMPARISON OF FACULTY WITH OTHER LEADERSHIP GROUPS

    A comparison of ideological attitudes of faculty in the 1999 
Academic Study Survey with the ideological orientation of other elite 
groups in the 1995 Elite Survey shows that academics are more liberal 
than most other elites, many of which are more liberal than the general 
public. \1\ The two surveys asked the same questions on a number of 
political and social issues. Because responses to questions on each of 
these issues were closely related, political and social ideology 
indexes were created by means of factor analysis from a combined sample 
of the faculty and administrators in the Academic Study Survey and 
elite groups in the Elite Survey. Index scores were standardized at the 
mean of 100 and standard deviation of 10. A higher score signifies more 
liberal attitudes.
---------------------------------------------------------------------------
    \1\ The 1995 Elite Survey was based on random samples of the 
following elite groups in the United States: bureaucrats, business 
leaders, federal judges, lawyers, media, religious leaders, and TV/
Movie makers. The sample size was over 1900. For details, see Rothman, 
Stanley and Amy Black. ``Elites Revisited: American Social and 
Political Leadership in the 1990s.'' International Journal of Public 
Opinion Research 11 (2), 1999, pp. 169-195.
---------------------------------------------------------------------------
    The political ideology index is derived from questions dealing with 
the government role in ensuring that everyone has a job, reducing the 
income gap between rich and poor, and attitudes towards competition, 
and views of the relative importance of freedom and equality. \2\ The 
social ideology index is created from questions on a woman's right to 
decide whether or not to have an abortion, attitudes toward a couple 
living together without intending to get married, and whether 
homosexuality is as acceptable a lifestyle as heterosexuality.
---------------------------------------------------------------------------
    \2\ The political ideology index for the Elite Study does not 
include question on competition.
---------------------------------------------------------------------------
    On the political ideology index, the faculty (101.89) is more 
liberal than the business elite (90.72), judges (95.68), lawyers 
(96.50), and bureaucrats (96.53), but professors, taken as a whole, are 
more conservative than media elites (103.10). Political ideology of 
faculty, as measured by this index, is close to ideological preferences 
expressed by religious elite (101.92), and TV and movie elites 
(100.35). On the social ideology index, faculty (101.67) is more 
liberal than religious elites (87.59), judges (95.68), business elites 
(98.00), lawyers (100.42), and bureaucrats (100.74) but more 
conservative than media elite (105.39) and TV and movie elites 
(106.11). (Table 5). Once again the views of academics in the 
humanities and the social sciences are considerably further to the 
left. On the political ideology index they are further to the left than 
any other group in either study (1.03.56; 104.45). On the social 
ideology index (104.57; 104.34) they are only outpaced by the media and 
Hollywood elites), but are far to the left of any other group in either 
sample.

                   CHANGES IN IDEOLOGICAL ORIENTATION

    A comparison of the 1999 Academic Study Survey with previous 
surveys of American faculty indicates a significant shift to the left, 
but one should note that differences in question wording may have 
affected survey results. The 1969 Carnegie Commission on Higher 
Education Survey revealed that 45 % of faculty classified their 
political views as left or liberal, 27 % as middle of the road, and 28 
% as moderately or strongly conservative. \3\ The 1975 Carnegie 
Commission Survey and the 1984 Carnegie Foundation for the Advancement 
of Teaching Survey showed only minor ideological changes. The left and 
liberal faculty members constituted 41 % in 1975 and 40 % in 1984. 
Twenty-eight and 27 % of the respondents occupied middle of the road 
positions, 31 and 34 % of the faculty identified their views as 
moderately and strongly conservative. \4\ As noted, 72 % of the faculty 
respondents in the US in 1999 placed themselves on the left of the 10 
point ideological scale, compared with 14 % in the middle and 15 % on 
the right.
---------------------------------------------------------------------------
    \3\ Ladd, Everett Carl and Seymour Martin Lipset. The Divided 
Academy: Professors and Politics. Mc Graw-Hill Book Company, 1975, p. 
369.
    \4\ Hamilton, Richard F. and Lowell L. Hargens. ``The politics of 
the professors: self-identifications, 1969-1984.'' Social Forces 71(3), 
1993, p. 608.
---------------------------------------------------------------------------
    The data on political party identification show a similar shift to 
the left. Half, 50 % of faculty in the 1999 Academic Study Survey, 
compared to 37 % in the 1972 Ladd/Lipset Survey, described themselves 
as Democrats. The proportion of Republicans was 11 % in 1999 and 13 % 
in 1972, while the proportion of independents declined from 49 % to 33 
%. \5\
---------------------------------------------------------------------------
    \5\ Ladd and Lipset, pp. 223-224. We find that self professed 
Democrats are more liberal than self professed independents on on both 
the political (104.82 vs 99.90) and social (105.30 vs 100.54) ideology 
scales.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Statement of the American Jewish Congress
    The American Jewish Congress (AJCongress) is a membership 
organization of American Jews with members throughout the United 
States. It is committed to protecting fundamental constitutional 
freedoms and American democratic institutions, particularly the civil 
and religious rights of Jews and of all Americans. It is also committed 
to advancing the security of the State of Israel and to supporting its 
search for peaceful relations with its neighbors in the region.
    In the implementation of this mandate, AJCongress has always been 
particularly concerned with issues involving the education of America's 
youth. It has taken strong positions with respect to issues of equality 
in schools, separation of church and state, and in recent years, the 
problem of anti-Semitism and anti-Zionism on college campuses. Through 
our interest in the latter subject we have been made aware of the 
problems of bias and distortion in certain K-12 teacher outreach 
programs emanating from Mid-East area and language studies centers 
funded by Title VI of the Higher Education Act.
    Our own investigation revealed that anti-American and anti-Israel 
bias permeated materials distributed at Title VI funded teacher 
workshops conducted by Mid-East centers at the University of California 
at Santa Barbara; Connecticut Central State University; and Georgetown 
University. And we have become aware of the criticism of Title VI 
programs by such knowledgeable critics as Stanley Kurtz, Martin Kramer 
and Daniel Pipes.
    To further our investigation of these outreach programs, AJCongress 
sought, through a Freedom of Information Act request, copies of the 
reports sent by the Title VI funded Mid-East centers to the Department 
of Education concerning their activities. Our examination of many 
hundreds of pages of these reports showed that the Department of 
Education was given detailed information about the place, time, 
subject, title and number of attendees at outreach activities. However, 
no information was requested or given as to the content of these 
programs. Thus, the Department of Education has no way of assessing 
whether the K-12 teacher workshops it is funding give a fair, 
historically accurate and balanced view of the subjects presented and 
thus fulfill the statutory purposes of providing not only language 
instruction, but ``full understanding of areas, regions and countries 
in which such language is commonly used.''
    When AJCongress realized not only that the funded programs lacked 
accuracy and balance but that the criteria employed by the DOE did not 
even include these qualities as a basis for selection, we filed the 
attached Petition. The Petition asks the Department of Education (DOE) 
to amend the criteria they employ in awarding funds to Title VI 
grantees. It gives examples of the bias and distorted anti-American and 
anti-Israel materials distributed in some of these Title VI funded 
programs. It also requests that DOE require that in considering grant 
proposals its reviewing readers ``determine the extent to which the 
teaching faculty and staff [of the grantee] represent the full range of 
scholarly and political views on the subjects taught,'' and the 
``extent to which the content of the courses and materials are 
objectively presented without bias and reflect the full range of 
political and scholarly views on the subject taught.''
    This suggested change in the selection criteria is clearly in 
accord with DOE's responsibility to only fund grantees that will 
fulfill the purposes of the authorizing statute. The Higher Education 
Act of 1965 reflected Congress' belief that ``systematic efforts [were 
needed] to enhance the capacity of institutions of higher education in 
the United States to not only produc[e] graduates with international 
and foreign language expertise'' but to ``disseminate information about 
world regions, foreign languages and international affairs throughout 
education . . . government, business, civic and nonprofit sectors.''
    Based on this finding and these purposes, the Secretary is 
authorized to make grants to national language and area studies centers 
which shall be national resources for ``teaching of any modern foreign 
language'' and for ``instruction in fields needed to provide full 
understanding of areas, regions or countries in which such language is 
commonly used.'' Clearly, if the information disseminated in teacher 
workshops is inaccurate, biased, distorted and does not reflect all 
political and scholarly views, the workshops are not fulfilling their 
statutory purpose of providing ``full understanding'' and DOE is 
without power to, and should not fund, such programs.
    Nevertheless, officials of the Department of Education have told 
AJCongress informally that they believe the Department is without power 
to influence the content of any of the Title VI funded programs. 
Despite having received from us additional evidence of anti-American 
and anti-Israel propaganda in a more recent Title VI program, the 
Department has yet to send AJCongress a formal reply to our petition 
requesting amendments to the Title VI selection requirements.
    This state of affairs makes clear, and the House of Representatives 
in enacting H.R. 3077 appears to agree, that Title VI of the Higher 
Education Act requires significant amendment.
    Title VI grantees must be put on notice of what their 
responsibilities are under the statute. Clearly, DOE is now remiss in 
its duty to properly implement and administer the statute when it fails 
to require accurate and balanced material and presentations at the 
teacher workshops, and if fails to monitor the presentations and 
materials developed for the workshops to assure that the grantees are 
fulfilling the statutory purpose. Surely, the role of the Department of 
Education with respect to Title VI K-12 outreach programs is not merely 
to count how many teachers attend and how many speeches are made to the 
community, and then just send money.
    Neither academic freedom nor respect for local control of education 
compels DOE to be a passive conduit of federal monies funding anti-
American and anti-Israel propaganda. Whereas at one time K-12 education 
was the sole province of state and local governments, that day is long 
past. The Bush Administration prides itself on enacting the ``No Child 
Left Behind Act,'' whose myriad regulations concerning teacher quality, 
accountability, test scores improvement and extra help for needy 
students must be observed as a condition for obtaining federal funds. 
That same Administration cannot in good conscience continue to claim it 
may not monitor the use of federal funds to achieve balance and 
accuracy in K-12 teacher workshops dealing with international affairs.
    We urge the Committee to pass legislation to amend Title VI to 
assure, as the House enacted bill does, that courses and instructions 
for K-12 classrooms be ``representative of a full range of views on the 
subject matter.'' We also urge that there be a general requirement that 
the Secretary of Education, in making and evaluating grants t language 
and areas centers, must consider whether they are presenting ``diverse 
perspectives'' and are reflecting the ``full range views on the subject 
matter.''
    Finally we urge the Committee to provide oversight and 
accountability for the Title VI programs through the creation of an 
advisory board.
    Thank you for the opportunity to offer these views.
                                 ______
                                 
                          American Jewish Congress,
                                        New York, NY 10028,
                                                    March 10, 2003.
Hon. Rodney Paige,
Secretary of Education,
U.S. Department of Education,
Washington, DC 20202-0100.

                           Citizens Petition

                            RELIEF REQUESTED

    The American Jewish Congress (``Petitioner'') petitions the 
Secretary of Education (``Secretary'') under 5 U.S.C. Sec. 553(e) and 
20 U.S.C. Sec. 1232(d), the General Education Provisions Act, to amend 
the selection criteria required to be employed by the Secretary in 
evaluating an application for a grant to fund comprehensive National 
Resource Centers authorized under Section 602 of the Higher Education 
Act as amended, 20 U.S.C. Sec. 1122.
    Thirty-four C.F.R. Sec. 656.21(b) authorizes the Secretary in 
evaluating such an application to make certain determinations as to the 
qualifications of teaching faculty and staff for Center activities and 
training programs. Petitioner seeks to amend this regulation to require 
that the Secretary in making this determination also ``determine the 
extent to which the teaching faculty and staff represents the full 
range of scholarly and political views on the subjects taught.'' 
Petitioner also seeks an amendment to 34 C.F.R. Sec. 656.21(f)1, which 
already grants points based on the quality of the Centers' non-
instructional program and extent of the Centers' course offerings in a 
variety of disciplines, to require that the Secretary also consider 
``the extent to which the content of the courses and materials are 
objectively presented without bias and reflect the full range of 
political and scholarly views on the subjects taught.''

                         STATEMENT OF INTEREST

    The American Jewish Congress is a membership organization of 
American Jews committed to the protection of American constitutional 
rights and liberties and to the well-being of the State of Israel.

                   REASONS FOR REQUESTING AMENDMENTS

    Petitioner seeks these amendments to the Secretary's criteria for 
making grants to National Language and Area Centers Program because of 
persistent reports and persuasive documentary evidence which we believe 
to be true that at least some centers, particularly centers devoted to 
the study of the language and culture of the Middle East, have 
conducted outreach programs for teachers of primary and secondary 
schools that have been biased, and lacked balance and academic rigor. 
See Stanley Kurtz, Anti Americanism in the Classroom, Hudson Institute 
OnLine, page 1, May 16, 2002, concerning the Center for Middle East 
Studies at the University of California; Maryellen Fillo, Mideast 
Course Gets Mixed Reviews, Hartford Courier, page 12, August 3, 2002, 
concerning Central Connecticut State University Middle East Summer 
Institute; Leonard Felson, State Auditors to Review Process That Led to 
Funding of Controversial Program on Mideast, The Jewish Ledger, 
November 24, 2002, concerning Central Connecticut State University; 
Martin Kramer, Ivory Towers on Sand, passim, concerning Middle East 
Centers generally.
    While Petitioner recognizes that with respect to controversial 
aspects of the curriculum there may not be any one accepted view, with 
respect to such subjects, it is particularly important that the 
diversity of perspectives be presented and that all academically 
supportable sides of a disputed subject be set forth as fairly and 
dispassionately as possible. Our own examination of the materials 
distributed in the various Outreach Programs for Middle School and 
Secondary School teachers funded under Title VI indicate that this 
appears not to be happening in many workshops. In other instances, some 
elements of the curriculum materials distributed do not meet the test 
of academic or intellectual rigor since they are not supported by 
credible facts.

University of California at Santa Barbara
    In the materials distributed in connection with a teachers workshop 
entitled ``The September 11 Crisis: A Critical Reader,'' held by the 
Middle East Studies Center, University of California, Santa Barbara on 
October 13, 2001, there are at least five articles (Attachment A) that 
in the guise of supposedly explaining the ``cause'' of the 9/11 
disaster contain ``explanations'' that are inaccurate, and contain 
significant amounts of anti-Israel and anti-United States bias. The 
piece by Aruhndati Roy, The Algebra of Infinite Justice, is typical. 
She writes:
    For strategic, military and economic reasons, it is vital for the 
US government to persuade its public that their commitment to freedom 
and democracy and the American Way of Life is under attack. In the 
current atmosphere of grief, outrage and anger, it's an easy notion to 
peddle. However, if that were true, it's reasonable to wonder why the 
symbols of America's economic and military dominance-the World Trade 
Centre and the Pentagon-were chosen as the targets of the attacks. Why 
not the Statute of Liberty? Could it be that the stygian anger that led 
to the attacks has its taproot not in American freedom and democracy, 
but in the US government's record of commitment and support to exactly 
the opposite things-to military and economic terrorism, insurgency, 
military dictatorship, religious bigotry and unimaginable genocide 
(outside America)? It must be hard for ordinary Americans, so recently 
bereaved, to look up at the world with their eyes full of tears and 
encounter what might appear to them to be indifference. It isn't 
indifference. It's just augury. An absence of surprise. The tired 
wisdom of knowing that what goes around eventually comes around. 
American people ought to know that it is not them but their 
government's policies that are so hated.
    The September 11 attacks were a monstrous calling card from a world 
gone horribly wrong. The message may have been written by Bin Laden 
(who knows?) and delivered by his couriers, but it could well have been 
signed by the ghosts of the victims of America' old wars. The millions 
killed in Korea, Vietnam, and Cambodia, the 17,500 killed when Israel-
backed by the US-invaded Lebanon in 1982, the 200,000 Iraqis killed in 
Operation Desert Storm, the thousands of Palestinians who have died 
fighting Israel's occupation of the West Bank. And the millions who 
died, in Yugoslavia, Somalia, Haiti, Chile, Nicaragua, El Salvador, the 
Dominican Republic, Panama, at the hands of all the terrorists, 
dictators and genocidists whom the American government supported, 
trained, bankrolled and supplied with arms. And this is far from being 
a comprehensive list. \1\
---------------------------------------------------------------------------
    \1\ Arundhati Roy, The Algebra of Infinite Justice, Guardian, 
Saturday September 29, 2001, included in The September 11 Crisis: A 
Critical Reader, prepared for ``the September 11 Crisis and Teaching 
Our Children: A Workshop for K-12 Teachers,'' hereinafter ``Reader.''
---------------------------------------------------------------------------
    The materials distributed at the Santa Barbara October workshop 
contain no articles giving the more conventional, and, we believe, 
clearly accurate, explanation for Bin Laden's attack on the World Trade 
Center.
    Even where effort is made to provide some balance, as in the case 
of the alleged massacre at Deir Yassin during the 1948 Arab Israel War, 
nine pages are devoted to a so-called ``eyewitness account'' which 
supports the Palestine version, as compared to two pages devoted to the 
Israeli version. \2\ (Attachment B)
---------------------------------------------------------------------------
    \2\ Dr. Meir Paul, Dr. Ami Isseroff, Deir Yassin, Mier Paul's 
Eyewitness Account (attached), presented by Peace Middle East Dialog 
Group in ``Reader'' and Mitchell G. Bard, Myths and Facts: A Guide to 
the Arab Israeli Conflict, p. 172 (2001) (attached).
---------------------------------------------------------------------------
    Resource materials and readings distributed by this same Middle 
East Center in connection with a workshop on the Israel/Palestine 
Conflict held June 18-21, 2002 are similarly biased, with no real 
attempt to convey the diversity of views on this controversial subject. 
For example, the materials treating the 1948 Arab-Israeli conflict, 
particularly the reasons for the exodus of Arabs from their villages in 
1948 adopt without reservation the controversial position of the 
``revisionist'' Israeli historians (Attachment C). These historians 
conclude, in contradiction to the accepted Israeli view that the Arab 
villagers left voluntarily that (1) there was no blanket order for 
Palestinians to evacuate their homes and villages; (2) there were 
efforts by Arab leaders to stem the exodus; and (3) there was evidence 
of direct, hostile Jewish Haganah/IDF operations against Arab 
settlements, although it was not official Israeli policy to drive the 
Arabs out, though it did fit in with their plans and made it easier to 
settle more Jews on the land.
    The essays of the two Israeli historians included in the 
distributed materials adopt this new revisionist history approach and 
set forth the traditional Israeli view that the Israelis did not try to 
drive the Palestinians out only to attack it. The piece by the 
Palestinian historian attacks even these revisionist pieces and 
suggests that the evidence of the new historians that the Israelis 
sometimes used force or ``nudged'' the Palestinians to leave was, in 
fact, evidence of a pre-ordained de facto forcible transfer policy of 
the Israelis in 1948. In short, evidence of only one version of a 
sharply contested event is given.
    Other materials distributed as part of this June 2002 course 
(Attachment D) emphasize that Israel established a military 
administration to govern the Palestinian residents of the occupied West 
Bank and Gaza denying basic political rights and civil liberties and 
criminalizing Palestinian nationalism and even punishing acts of non-
violence. \3\ This treatment makes no distinction between the time 
before and after the first and second Intifadas when the Israelis 
suffered increasing acts of terrorism coming from the territories and 
responded more harshly as the terrorist acts increased.
---------------------------------------------------------------------------
    \3\ Joel Beinin, Lisa Hajjar, Palestine, Israel and the Arab-
Israeli Conflict, pp. 8-9, produced on-line by the Middle East Research 
and Information Project.
---------------------------------------------------------------------------
    Other historians not represented in the workshop materials state 
that
    early in the Israeli occupation Israeli authorities did try to 
minimize the impact on the population in the territories. Except for 
requirements that school texts in the territories be purged of anti-
Israel and anti-Semitic language, the authorities tried not to 
interfere with the inhabitants. They did provide economic assistance, 
for example to Palestinians in the Gaza Strip who were moved from camps 
to new homes. Arabs were given freedom of movement. They were allowed 
to travel to and from Jordan. In 1972 elections were held in the West 
Bank. Women and non-landowners, unable to participate under Jordanian 
rule, were now permitted to vote. \4\ After the six day war the 
traditional pro-Jordanian leadership continued to hold many civil 
service positions and were paid by Jordan. Israel also attempted to 
shift increasing responsibilities from the military to civilian 
administrations and to Palestinians.
---------------------------------------------------------------------------
    \4\ Mitchell G. Bard, Myths and Facts: A Guide to the Arab Israel 
Conflict, pp. 89-90, Maryland (2001).
---------------------------------------------------------------------------
    Efforts to give Palestinians greater responsibility for their 
affairs were undermined by the Intifada. During the uprisings 
Palestinian Arabs who worked to cooperate with Israel came under attack 
and were silenced either through intimidation or murder.
    Israeli law prohibits arbitrary arrest of citizens; defendants are 
considered innocent until proven guilty and have the right to writs of 
habeas corpus and other procedural safeguards. Some prisoners, 
particularly Arabs suspected of terrorism, were interrogated using 
severe methods that have been criticized as excessive by many Israelis 
as well as others.
    Israel's Supreme Court issued a landmark ruling in 1999 prohibiting 
the use of a variety of abusive practices, including violent shaking, 
painful shackling in contorted positions, sleep deprivation for 
extended periods of time and prolonged exposure to extreme 
temperatures. The death penalty has been applied just once, in the case 
of Adolph Eichman, the man largely responsible for the ``Final 
Solution.'' No Arab has ever been given the death penalty, even after 
the most heinous acts of terrorism. Under law which Israel inherited 
from the British, administrative detention is permitted under certain 
circumstances, in security cases involving violent offenders the 
detainee is entitled to counsel and may appeal to the Supreme Court. 
\5\
---------------------------------------------------------------------------
    \5\ Id. at 232-234.
---------------------------------------------------------------------------
    None of this is presented in the materials distributed at the Santa 
Barbara teachers' workshops. On the contrary, they present an 
unrelentingly bleak and exaggerated picture of the treatment of the 
Palestinians by the Israelis which is far from the reality of that 
complex and changing relationship marked by Israel's willingness to 
engage in self-examination and self-criticism. The materials state:
    Hundreds of Palestinian political activists have been deported to 
Jordan or Lebanon, tens of thousands of acres of Palestinian land 
confiscated and thousands of trees have been uprooted. Since 1967 over 
300,000 Palestinians have been imprisoned without trial, and over half 
a million have been tried in the Israeli military court system. Torture 
of Palestinian prisoners has been a common practice since at least 
1971, and dozens of people have died in detention from abuse or 
neglect. \6\
---------------------------------------------------------------------------
    \6\ Beinin, Hajjar, supra.
---------------------------------------------------------------------------
    This, we submit, is on a par with the now discredited and disproved 
accounts of alleged Jewish massacres in the Palestinian city of Jenin. 
There are other evidences of bias too numerous to mention in the rest 
of the Beinin, Haggar materials presented in the workshops. Samples are 
annexed to this Petition.

Central Connecticut State University
    Materials recently received relating to a federally funded Middle 
East Studies Summer Institute for Teachers evidences similar bias. 
Attached are numerous published articles and letters in Connecticut 
newspapers and journals attesting to the one-sided nature of the 
presentation there (Attachment E).
    Our information is that similar biased programs have been presented 
at other centers. As we obtain more material we will forward it, but we 
feel we have presented enough evidences of bias to warrant the 
amendments to the regulations we seek.

                               CONCLUSION

    Petitioners believe that in this era of globalization it is 
essential to the security of the United States that American teachers 
understand and convey to their students an accurate, complete and 
unbiased understanding of the history, economics, politics and culture 
of the various parts of the world far from American shores with which 
Americans must interface. Petitioners contend that this goal is 
explicitly spelled out under Purposes of the Act \7\ pursuant to which 
these grants are authorized and that regulations that implement the Act 
must be designed to help achieve these Purposes. The current 
regulations fail to do so. As the United States seems poised to go to 
war in this volatile part of the world, a citizenry informed about the 
culture, politics and history of this area is particularly important. 
One way to achieve such a citizenry is to require that the 
comprehensive foreign language and area studies centers and programs 
funded by the United States government for the purpose of outreach to 
the community are staffed by teachers who are qualified and that the 
materials they present are as objective, accurate and balanced as 
possible.
---------------------------------------------------------------------------
    \7\ 20 U.S.C. Sec. 1121.
---------------------------------------------------------------------------
    Requiring the Secretary to employ selection criteria with these 
goals in mind will prevent distorted, one-sided and biased 
presentations and should go far to achieve fairness.
    WHEREFORE, the American Jewish Congress respectfully petitions the 
Secretary to add the suggested new selection criteria to those already 
set forth in 34 C.F.R. Sec. 656.21(b)1 and 34 C.F.R. 656.21(f)1 to 
assure that the faculties and course offerings at the Comprehensive 
National Resource Centers funded by the government give their students 
a fair, historically accurate and balanced view of the history, 
politics, economics and culture of the areas studied.
            Respectfully Submitted,
                                            Neil Goldstein,
                                                Executive Director.

    [Whereupon, at 3:27 p.m., the subcommittee was adjourned.]


</pre></body></html>
